UNITED STATES MARSHALS SERVICE’S
     PRISONER MEDICAL CARE
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division
          Audit Report 04-14
            February 2004
                 UNITED STATES MARSHALS SERVICE’S
                      PRISONER MEDICAL CARE

                          EXECUTIVE SUMMARY

      The United States Marshals Service (USMS) is responsible for providing
medical care to the roughly 40,000 prisoners it has in its custody at any
given time. Federal prisoners in USMS custody are housed in local jails,
contract facilities, and the Federal Bureau of Prisons (BOP) facilities
throughout the country while awaiting trial in federal courts. These
prisoners remain in USMS custody throughout the trial process, which may
run anywhere from several days to several years.

      Medical care provided to USMS prisoners falls under one of two
categories: 1) in-house medical care, or 2) outside medical care. In-house
medical care encompasses health care provided at local jail clinics, and in
some instances emergency care provided in USMS cellblock operations.
Outside medical care comes into play when a prisoner in USMS custody
requires advanced or specialized medical care and must be sent to an
outside health care facility. In fiscal year (FY) 2002, the USMS spent
approximately $43 million on outside medical services for its prisoners,
which included $36 million for medical services and $7 million in related
guard costs. In addition to the costs of providing outside medical care, there
are associated risks, which include the possibility of: 1) escape; 2) death or
injury to an innocent bystander, law enforcement official, or the prisoner;
and 3) exposure of the general public to possibly infectious diseases.

       The objectives of this audit were to determine whether: 1) the USMS
is providing prisoners necessary health care; 2) the USMS is screening and
treating prisoners for communicable diseases; 3) prisoner medical costs are
necessary and reasonable; and 4) the USMS is providing prisoners secure
transport to off-site facilities to receive medical treatment.

       The audit’s scope encompassed the USMS’s management of prisoner
medical care during period FY 2000 through FY 2003. Our primary focus
was on management of prisoner medical care activities by USMS district
offices. In conducting the audit we: 1) researched and reviewed applicable
laws, policies, regulations, manuals, and memoranda; 2) interviewed USMS




                                     -   i-
officials at district offices and USMS headquarters; and 3) tested internal
controls over prisoner medical care at 14 USMS district offices.1

      To assess USMS efforts at controlling the spread of tuberculosis (TB)
among inmates, we interviewed USMS employees manning the cellblock
areas to determine whether they were familiar with the symptoms of TB.
We also reviewed files of prisoners in USMS custody during our site visits
and determined whether TB skin tests were timely completed and
documented. In addition, we reviewed USMS efforts to address the control
of HIV/AIDS and hepatitis.

      In order to determine whether USMS medical procedures were
necessary, accurately recorded, and supported by documentation, we tested
a statistical sample of outside medical transactions reported in FY 2002 (See
Appendix XI). We also interviewed district officials and reviewed randomly
selected medical bills to establish if outside medical services were being
procured in accordance with federal acquisition regulations.

      We judgmentally selected and reviewed the personnel files for contract
hospital guards to determine whether the hospital guards utilized by the
USMS met the qualification standards for job experience, background,
physical fitness, and training. Guards that do not meet these requirements
may not perform their job properly and could endanger the lives of the
prisoner, themselves, and the general public.

     In addition, we interviewed the Contracting Officer’s Technical
Representative (COTR) for each district’s hospital guard contract to
determine whether the COTRs were qualified for their position and to
determine if they were effectively monitoring the contractor’s performance.

      Finally, we reviewed USMS jail inspection reports and interviewed jail
inspectors to evaluate USMS efforts to ensure that federal prisoners receive
adequate health care at the hundreds of detention facilities contracted by
the USMS to house federal prisoners awaiting trial.

I. Summary of Audit Findings

      The USMS is not properly managing its prisoner medical care. Our
audit determined that USMS district offices often ignore essential internal

       1
          The 14 USMS districts were: District of Arizona, Central District of California,
Southern District of California, District of Columbia District Court, Middle District of Florida,
Northern District of Illinois, District of Kansas, District of New Mexico, Eastern District of
New York, Western District of New York, Eastern District of Pennsylvania, District of South
Carolina, Western District of Texas, and Southern District of Texas.


                                               -   ii -
controls and procedures designed to ensure that basic and emergency health
care is properly administered and necessary outside medical care is
efficiently and safely provided. We also found that by failing to fully comply
with statutory cost saving measures, the USMS is paying out millions more
than necessary for prisoner medical care on an annual basis. Specifically,
the audit determined that:

       •   USMS districts are not adequately tracking and monitoring
           communicable diseases, such as TB, hepatitis, and HIV/AIDS.

       •   The USMS is not obtaining the lowest medical rates allowed by
           federal legislation, and as a result is paying out an estimated
           $7 million annually in excess fees for outside medical care.

       •   USMS districts are not maintaining personnel documentation or
           providing training needed to ensure that contract hospital guards
           are fully qualified to perform their duties.

       •   USMS districts are not properly reviewing the performance and
           billings of hospital guard contractors.

       •   USMS districts are not providing adequate emergency response to
           prisoners housed in their cellblocks. Uncertainty exists at the
           district level as to what the current policies are governing health
           and emergency care in cellblocks.

       •   USMS districts are not taking the necessary actions needed to
           ensure that federal prisoners housed in local detention facilities are
           receiving standard basic health care.2

       •   USMS districts are not following financial control procedures
           established to ensure that outside medical payments are: 1) valid
           and legitimate, 2) necessary according to USMS guidelines,
           3) accurate and at the lowest cost, and 4) not duplicated.

       •   USMS districts are obtaining outside medical services in violation of
           Federal Acquisition Regulations.




       2
          American Correctional Association (ACA) has established criteria defining standard
basic prisoner health care.


                                           -   iii -
II. Background

       Initial medical screening of a federal prisoner occurs at the booking of
the individual at a USMS district office, which is often located in the local
federal courthouse. At booking, USMS deputies observe the arrestee and fill
out a booking sheet documenting the arrestee’s responses to a few basic
medical questions. While awaiting either a court appearance or transport to
a federal Bureau of Prisons (BOP) or local jail facility where medical
screening will take place, the arrestees are kept in the cellblock. The term
“cellblock” refers to a secure area in the USMS office intended to temporarily
house prisoners awaiting court proceedings or transport.

       Given the short span of time that prisoners usually spend in the
cellblock area, medical care is normally not required. In some cases,
however, prisoners awaiting trial may have chronic medical conditions, such
as asthma or heart disease that may require medical attention. Emergency
medical situations can also occur during a prisoner’s cellblock stay.

        For basic medical screening and routine medical services for federal
prisoners, the USMS relies largely on local jails, contract jails, and BOP
facilities, most of which are equipped with in-house medical clinics within
their facilities. The costs of such in-house medical services are usually
covered in the per diem rates charged to the USMS under the terms of an
Intergovernmental Service Agreement (IGA),3 in the case of a local jail, or
the contracted jail day rate, in the case of a private contract facility. Medical
services provided to USMS prisoners in BOP facilities are provided at no cost
to the USMS.

      In-house medical services provided by the jails housing federal
prisoners can vary substantially. Some local jails may have on-site medical
professionals and sophisticated medical facilities, equipped with X-ray and
dialysis machines, TB isolation cells, and dental services. Some facilities
may even be able to accommodate minor surgical procedures. At the other
end of the spectrum are facilities with very limited health care services
where a local deputy or administrative official may ask general medical
questions to complete paperwork necessary to process the individual.
Prisoners at these facilities must often be transported outside the facility for
procedures that are routinely performed at jails with more comprehensive
medical services.




       3
          The Intergovernmental Agreement states that a negotiated daily rate per prisoner
will be paid by the USMS to the jail.


                                           -   iv -
III.   Management of Outside Medical Care

       The USMS is incurring millions of dollars in unnecessary costs for
outside medical care because it is not re-pricing medical billings at the
lowest rate afforded by federal legislation. The USMS currently has a
contract with Healthnet, Inc., to re-price all outside medical billings at the
Medicare rate. The re-pricing of medical bills from the vendor’s full price at
the Medicare rate saved the agency approximately $20.2 million in its first
full year of implementation. However, effective November 29, 1999, Public
Law 106-113, which amended Title 18 USC Section 4006, requires the USMS
to pay prisoner medical claims at the Medicare or Medicaid rates, whichever
is less. Based on a recent study that showed that Medicaid rates averaged
81 percent of Medicare rates, we estimated that the USMS spent about
$7 million more on outside medical services in FY 2002 than necessary. The
USMS is currently negotiating for a national health care contract that, if fully
implemented, will incorporate Medicaid rates into the re-pricing process.

        Internal controls over outside medical care at the USMS district offices
reviewed were inconsistent and in some cases non-existent. We noted
weaknesses in the internal control structure throughout the process, from
procurement through payment. Districts were not reconciling invoices with
pre-authorizations, in some cases because there were no pre-authorizations
with which to reconcile. In tests of procedures, at least 3 percent of medical
procedures were determined to be unnecessary. In most instances the
unnecessary procedures resulted because districts were not proactively
involved in the pre-authorization process, allowing the BOP or local detention
facility to dictate whether outside medical treatment was required without
notifying the USMS. 4 Often the district office was unaware of the medical
treatment or hospitalization until a bill was received.

       USMS prisoner case files were not complete with regard to required
medical documentation, and in some districts were non-existent. Medical
procedures were not consistently entered into the Prisoner Tracking System
(PTS). Financial transactions were not classified consistently in the Financial
Management System (FMS). Violations of the Federal Acquisition
Regulations were commonplace. Based on our audit testing we determined
that 84 of the 164 payment transactions that exceeded $2,500 were not in
full compliance with federal procurement regulations because the medical
service providers did not have binding written agreements with the USMS.



       4
         District officials stated that the BOP often does not request or seek authorization
from the USMS when obtaining outside medical treatment for federal prisoners in USMS
custody.


                                             -   v-
IV.   In-House Medical Care

       We found that USMS districts were not adequately monitoring local
detention facilities to determine whether federal prisoners were receiving
proper health care. In addition, USMS districts were not effectively initiating
health care improvements at local jails that provided substandard health
care. USMS inspections were cursory and often were not forwarded to
headquarters, as required. The inspection reports annually submitted to
district officials did not provide enough detailed information, such as
observations, interviews, documents reviewed, to support general findings
that the health care provided by the jail met the required standards.
Further, in three of the districts reviewed, deputy marshals who had not
received any training in jail inspections were performing the inspections. In
addition, jail inspector duty for deputy marshals is collateral to their normal
law enforcement responsibilities. The auditors noted that deputies assigned
to perform jail inspections were not specifically rated on their performance
evaluations for the quality or timeliness of their jail inspection work.

       Our audit questioned not only the quality of the USMS jail inspections
but also their timeliness, as many reports were not being submitted annually
as required by USMS policy and procedures. In FY 2002, 8 of the 14
districts reviewed did not complete annual evaluations of the prisoner
medical care provided by all their major use detention facilities.

      Further, inspections by the USMS conflicted with reviews conducted by
other groups. In one instance, we noted that USMS district officials had
performed an ins pection and issued a clean report on a contract facility at
the same time that the Department’s Civil Division was issuing its own
report detailing numerous constitutional rights violations, many related to
medical care.

V.    Communicable Diseases

       USMS tracking and monitoring of communicable diseases, such as TB,
hepatitis, and HIV/AIDS, was not consistent from district to district, and in
some districts was not done at all. Current USMS policy concerning
communicable diseases addresses TB only. However, we found little
evidence that districts were acting in accordance with that policy. Many
districts were not performing initial intake screening of prisoners for TB, and
many did not maintain information on prisoners’ TB status. In general,
USMS districts rely on local jails to test and monitor TB status. This is
problematic because local jails do not always test for TB and are not always
timely when they do test.



                                     -   vi -
      We found documentation on prisoners’ TB status almost non-existent.
The USM Form-553, used to document TB clearance, was either entirely
missing from case files, if there were case files, or the form did not contain
TB results. Documentation in the PTS was also sparse to non-existent. Only
2 of the 14 districts reviewed were utilizing the PTS, and these districts were
doing so only partially. One of those districts had entered only 9 of the 25
inmates selected into the PTS, and the other had entered only one prisoner
out of the 25 selected.

       We asked each of the districts reviewed to provide us a list of
prisoners currently in USMS custody who had been diagnosed with active TB.
Of the 14 districts, 6 districts could not provide a list of prisoners with active
TB, 3 districts were able to provide a list, and 5 of the districts stated that
they had not processed any prisoners with active TB during the review
period. However, we later determined that one of the districts claiming not
to have processed any prisoners with active TB had paid for treatment of
active TB for a USMS prisoner in FY 2002. This lack of awareness was not
totally unexpected, given the scarcity of TB-related information in the
prisoner files and the PTS. It is, nevertheless, a cause for concern given
that prisoners who are suspected of or have been diagnosed with active TB
are not to be produced for court or transported (other than to an appropriate
local medical facility) by USMS personnel until the prisoner has received the
appropriate medical care and is medically cleared by a health professional.

      In one incident, a prisoner was released on bond prior to his TB test
results being received. Subsequent receipt of the prisoner’s chest x-ray
results confirmed that he had active TB. In another incident, a deputy
marshal was unknowingly exposed to TB when he had escorted a prisoner
that, unbeknownst to him, had been diagnosed with active TB. According to
the deputy, he was not advised of the prisoner’s condition until after he had
transported the prisoner. The deputy later tested positive for TB and had to
be treated.

       No formal USMS policies currently exist at the national level for
tracking and monitoring cases of hepatitis and HIV/AIDS. We found that
district offices, for the most part, had not taken any steps to fill the policy
vacuum at the national level regarding hepatitis and HIV/AIDS. When
asked, district officials stated that there were no local policies or that they
were not aware of them if there were. Not surprisingly, there was little
consistency from district to district in the handling of hepatitis and HIV/AIDS
cases. Seven of the districts were documenting the health status for
HIV/AIDS and hepatitis for prisoners on USMS forms, six of which entered
information into the PTS.



                                      -   vii -
VI.   Prisoners are Transported and Guarded by Contract Personnel

      A critical factor in providing outside medical treatment to federal
prisoners is the secure transport to and from health care facilities and
guarding of prisoners during the period of treatment. Contract guards were
used in 12 of the 14 districts we reviewed.

       Management of contract guard operations relative to prisoner medical
care was characterized by inadequate training, breaches in policy, and
lapses in internal controls. The problems occurred in nearly all areas of
contract guard activity, ranging from lack of documentation to
overpayments. More importantly, the ill-managed contract guard operations
have created an environment in which the USMS cannot effectively control
the risks inherent in transporting federal prisoners to and from off-site
health care facilities.

       We found that districts were not keeping complete personnel files
documenting the guards’ experience and other qualifications. Furthermore,
several districts reviewed by the audit team did not require that these
individuals complete any of the USMS’s required training courses.

      The USMS is not placing a high priority on monitoring and evaluating
the performance of their hospital guard contracts. The U.S. Marshal usually
assigns deputies collateral duty as COTR. The COTR is the on-site contract
administrator and is responsible for monitoring the contract to ensure that
contract performance requirements are being met. We interviewed COTRs
to evaluate their knowledge of contractor performance and found that many
COTRs lacked a proper knowledge of the hospital guard contract they were
managing. We further ascertained that most COTRs had not submitted
formal evaluations of the contract to district management.

       We noted at least one instance where a guard’s failure to follow
standard procedure allowed a prisoner to escape from his hospital room.
The prisoner, who was hospitalized for treatment of active TB, was placed in
a non-secured section of the hospital because the secured wing was full.
The unsecured hospital room had no observation port in the door and had
windows to the outside that could be opened. Further, because the prisoner
had active TB, the contract guard did not stay in the room with the patient.
Consequently, the contract guard failed to maintain regular visual contact, in
violation of USMS procedures.

      As a result, the prisoner was out of the guard’s sight for a long enough
period to put on his street clothes (which he should not have had), tie
several bed sheets together, open the hospital room window and lower


                                    -   viii -
himself to the ground to make his escape. Following his escape, the
prisoner hijacked a woman driving her car. He was subsequently
apprehended and later died in custody from advanced TB.

VII. Office of Program Review

       The internal review function within the USMS falls under the
jurisdiction of the Management and Budget Division, specifically the Office of
Program Review. On April 19, 2000, the USMS Deputy Director issued a
memorandum directing the Program Review Office to suspend its reviews of
USMS district operations. Historically, this had been Program Review’s
primary area of responsibility, with staff completing about 30 reviews
annually. The reviews are comprehensive in scope and cover nearly all
aspects of district operations, including activities related to prisoner medical
care, such as: 1) prisoner transport, 2) contract and IGA billings, and 3)
judicial security. The inspection reports, signed by the USMS Director,
contain findings and recommendations, and require a formal resolution
process, documenting tha t necessary corrective actions were taken. The
district reviews were initially suspended as a short -term measure to deal
with staffing shortages in the field, which required that Program Review staff
be detailed to district offices in need of administrative support. However, as
of the last day of our fieldwork on October 28, 2003, district review activity
remained on hold. According to USMS officials, the reason for the continued
suspension is that the USMS plans to reorganize its internal review function
will remain on hold pending completion of the reorganization.

       In the three years since the suspension of these district reviews, the
Office has existed in a state of limbo. The staff is now restricted to
performing property management reviews, and does so only on a special
request basis. Staffing levels at the Eastern office have been reduced from
six to two analysts. The staff assigned to the Western office in Denver,
Colorado has been reduced from six analysts to four, the remainder of which
has been detailed to the Witness Security Program. The Central office in
Houston, Texas has been closed.




                                     -   ix -
VIII. OIG Recommendations

     Our report contains 12 recommendations to help improve USMS efforts
to manage prisoner medical care. These include recommending that the
USMS:

  •   Require that prisoners’ TB test dates and results be entered into the
      PTS and documented in the prisoners’ case files, and ensure that
      USMS deputy marshals perform initial TB screening of the USMS
      prisoners that are housed in USMS district holding cells.

  •   Effectively track and monitor USMS prisoners diagnosed with active
      TB.

  •   Implement a policy for tracking and monitoring of HIV/AIDS and
      hepatitis cases.

  •   Strengthen the jail inspection program.

  •   Ensure that deputy marshals are in compliance with cellblock health
      care policy and that they receive annual Cardio Pulmonary
      Resuscitation (CPR) and Automated Electronic Defibrillator (AED)
      training in order to maintain certification.

  •   Complete on-going effort to negotiate a national managed health care
      contract for prisoner medical services that remedy non-compliance
      with Title 18 USC and will effectively streamline the process.

  •   Enforce current USMS policy regarding the use of prisoners’ private
      insurance, where practicable, to cover the costs of outside medical
      care.

  •   Ensure that guard contracts are effectively monitored.

  •   Ensure that districts adhere to established procedures for authorizing,
      recording and tracking outside medical procedures.

  •   Re-institute internal operational reviews of USMS district offices.




                                     -   x-
                       UNITED STATES MARSHALS SERVICE
                           PRISONER MEDICAL CARE

                                  TABLE OF CONTENTS


INTRODUCTION ................................................................................1
In-House Medical Care .......................................................................1
Outside Medical Care .........................................................................2
Management of Prisoner Medical Care ...................................................3
Prior Reports ....................................................................................3

1.   INTERNAL CONTROLS OVER OUTSIDE MEDICAL CARE COORDINATED
     BY DISTRICTS WERE INCONSISTENT AND IN SOME CASES
     NEARLY NON-EXISTENT................................................................6
     Background ................................................................................6
     Recording of Financial Transactions in the
     Financial Management System (FMS) ..............................................8
     Prisoner Tracking System ........................................................... 10
     Prisoner Case Files .................................................................... 10
     Federal Acquisition Regulations .................................................... 11
     Office of Program Review............................................................ 14
     Recommendations ..................................................................... 15

2.   THE USMS IS INCURRING MILLIONS IN UNNECESSARY COSTS
     FOR OUTSIDE MEDICAL CARE...................................................... 16
     Medicare Versus Medicaid........................................................... 16
     Approval of Non-Emergency Outside Medical Care........................... 17
     Prisoner Insurance .................................................................... 18
     National Health Care Contract ..................................................... 19
     Recommendations ..................................................................... 21

3.   INTERNAL CONTROLS OVER IN-HOUSE MEDICAL CARE AT JAILS
     AND EMERGENCY CARE PRODEDURES IN USMS CELLBLCOKS
     NEED STRENGTHENING .............................................................. 22
     Background .............................................................................. 22
     Cellblock Medical Care And Emergency Procedures .......................... 23
     Cellblock Equipment .................................................................. 25
     Local Jailhouse Medical Care........................................................ 27
     Nassau County Correction Center................................................. 28
     Conditions of Confinement Reviews .............................................. 30
     Conclusion ............................................................................... 32
     Recommendations ..................................................................... 33
4.   TRACKING AND MONITORING OF COMMUNICABLE DISEASES ........... 34
     Initial Screening for TB............................................................... 35
     Documenting TB Results............................................................. 36
     Timeliness of TB Testing............................................................. 37
     Tracking Active TB Cases ............................................................ 37
     Hepatitis and HIV/AIDS.............................................................. 38
     Conclusion ............................................................................... 40
     Recommendations ..................................................................... 40

5.   SECURE TRANSPORT OF FEDERAL PRISONERS TO AND FROM
     HEALTH CARE FACILITIES JEOPARADIZED BY ILL-MANAGED
     CONTRACT GUARD OPERATIONS.................................................. 41
     Contract Personnel Records......................................................... 42
     Training................................................................................... 44
     Contract Monitoring ................................................................... 47
     Conclusion ............................................................................... 49
     Recommendation ...................................................................... 49

APPENDIX I            AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY ......... 50

APPENDIX II           SCHEDULE OF DOLLAR-RELATED FINDINGS ................. 53

APPENDIX III          GLOSSARY OF TERMS AND ACRONYMS ....................... 54

APPENDIX IV          STATEMENT ON COMPLIANCE WITH LAWS AND
                       REGULATIONS...................................................... 58

APPENDIX V           USMS POLICIES AND PROCEDURES
                       FOR TRANSPORTING FEDERAL PRISONERS ............... 59

APPENDIX VI          USMS CONTRACT GUARD POLICY ............................... 62

APPENDIX VII          USMS POLICIES AND PROCEDURES
                        FOR OUTSIDE MEDICAL SERVICES........................... 65

APPENDIX VIII         USMS POLICIES AND PROCEDURES FOR CELLBLOCK
                        OPERATIONS....................................................... 67

APPENDIX IX          RE-PRICING CONTRACT WITH HEALTHNET, INC. ........... 68

APPENDIX X           PROPOSED NATIONAL MANAGED CARE CONTRACT ........ 72

APPENDIX XI          STATISTICAL SAMPLING MODEL .................................. 76
APPENDIX XII    AUDITEE RESPONSE .................................................. 79

APPENDIX XIII   ANALYSIS AND SUMMARY OF ACTIONS
                  NECESSARY TO CLOSE REPORT............................... 97
                     UNITED STATES MARSHALS SERVICE
                         PRISONER MEDICAL CARE

                                   INTRODUCTION

       The primary mission of the United States Marshals Service (USMS) is
to protect the federal courts and ensure the effective operation of the
judicial system. Integral to that mission is the transporting, housing, and
guarding of federal prisoners during the trial process. The USMS is
responsible for housing and maintaining an average daily population of
about 40,000 federal prisoners awaiting trial in federal courts.

        Federal prisoners in USMS custody are housed in local jails, contract
facilities, and federal Bureau of Prisons (BOP) facilities throughout the
country. Depending upon the length of a prisoner’s court trial, time spent in
USMS custody may run from several days to several years, during which
time the USMS is responsible for the well-being of that individual, including
providing for adequate medical care.

In-House Medical Care

        For basic medical screening and routine medical services for federal
prisoners, the USMS relies largely on local and contract jails, as well as the
BOP, most of which are equipped with in-house medical clinics within their
facilities. The costs of such in-house medical services are usually covered in
the per diem rates charged to the USMS under the terms of an
Intergovernmental Service Agreement (IGA),5 in the case of a local jail, or
the contracted jail day rate, in the case of a private contract facility.
Services provided in BOP facilities are done so at no cost to the USMS.

        In-house medical services provided by the jails housing federal
prisoners can vary substantially. Some local jails may have sophisticated
medical facilities, replete with X-ray and dialysis machines, Tuberculosis (TB)
isolation cells, and dental services. Some facilities may even be able to
accommodate minor surgical procedures. At the other end of the spectrum
are facilities with very limited health care services. Prisoners at these
facilities must often be transported outside for procedures that are routinely
performed at jails with more comprehensive medical services.

     To assess the quality of care provided federal prisoners at local jails,
the USMS has a jail inspection program. Current USMS jail inspection

       5
          The Intergovernmental Agreement states that a negotiated daily rate per prisoner
will be paid by the USMS to the jail.


                                           -   1-
guidelines include standards established by the American Correctional
Association (ACA).6 USMS deputy marshals, as a collateral duty, conduct
these jail inspections and submit the reports to their district office. The
reports rate the jails compliance with ACA standards and list any medical
care deficiencies noted at the jail.

       USMS officials stated that only a small percentage of local jail facilities
met the standards required of the ACA for accreditation. Indeed, some
facilities have been subject to prisoner or third-party litigation because of
substandard conditions of confinement. Because of the limited number of
ACA-accredited jails available to house federal prisoners, USMS district
officials are not precluded from using non-accredited jails when warranted
by the need for bed space, as long as 24-hour access to emergency medical
services is be available.

Outside Medical Care

       When a prisoner in USMS custody requires advanced or specialized
medical care, the prisoner is usually sent out to a local health care facility.
In contrast to in-house medical care, USMS district offices are directly
involved in the process of acquiring outside medical care. USMS district
offices have the discretion, upon recommendation of a competent medical
authority, to acquire and provide reasonable and necessary outside medical
services for federal prisoners. Discretion comes into play in situations
involving non-emergency procedures. Given that most prisoners are in
USMS custody for relatively short time periods, certain non-emergency
procedures, while medically appropriate, may be delayed provided there are
no health risks to the prisoner. In fiscal year (FY) 2002, the USMS spent
approximately $43 million on outside medical services for its prisoners,
which included $36 million for medical services and $7 million in related
guard costs.

      Depending on the nature of the illness or injury, the services provided
may involve hospital stays of hours, days, weeks, and in some cases even
months. The risks inherent in providing of outside medical care to prisoners
are myriad and include the possibility of: 1) escape; 2) death or injury to an
innocent bystander, law enforcement official, or the prisoner during an
escape attempt; and 3) exposure of the general public to possibly
contagious diseases.

       6
          The ACA is a professional membership organization dedicated to the improvement
of corrections and the development and training of correctional professionals. The ACA’s
membership consists of individuals and organizations involved in all facets of corrections,
including adult institutions and jails, community corrections, juvenile justice, institutions of
higher learning, and probation and parole.


                                              -   2-
Management of Prisoner Medical Care

       The USMS Office of Interagency Medical Services (OIMS), a branch of
the Prisoner Services Division, is responsible for providing overall policy
direction and assistance to the field in all matters concerning prisoner
medical services. Established in 1994, the OIMS has several functions,
including: 1) case management for the districts;7 2) establishing policies
and procedures; 3) cost management efforts, such as the BOP/USMS
medical consolidation program; 8 and 4) TB management.

       Management of the day-to-day operations rests with the district
offices. Specifically, USMS district office personnel must: 1) approve the
medical treatment (sometimes in consultation with OIMS); 2) provide for
transportation and guard services for the prisoner; 3) document the
procedure(s) and cost; 4) enter medical billings into the Financial
Management System (FMS); and 5) ensure that transactions are properly
recorded and payments to medical providers are timely paid.

Prior Reports

      The Department of Justice (DOJ) Justice Management Division
previously reviewed USMS medical services in its 1998 Detention and
Incarceration Study, as well as in its Review of the USMS Prisoner Medical
Services issued December 1994. The review and subsequent study
highlighted areas of concern and opportunities for improvement including:

•   Personnel involved in transporting and guarding prisoners in buses, vans,
    and Justice Prisoner Alien Transportation System (JPATS) flights may be
    at risk of exposure to TB and other infectious diseases.

•   The BOP and the USMS need to coordinate agreements with hospitals and
    other health care providers to achieve the best possible rates and reduce
    duplication. The BOP has since made all its national hospital contracts
    inclusive of all federal prisoners, thus allowing the USMS to piggyback on
    these contracts, but the USMS does not always use these contracts.


       7
           The OIMS, in cooperation with the Public Health Service, provides advice to the
district offices when a prisoner requires extensive medical treatment, or the district office is
unsure of whether specific services are allowable under USMS policy.

       8
          In 1993, the USMS and BOP signed a Memorandum of Understanding citing the
need for the two agencies to work together to contain health care costs. Toward that end
the agencies have developed pilot projects at select institutions that house USMS prisoners.
The pilot projects have focused on reducing health care costs through sharing
arrangements, joint contracts, and other methods designed to contain medical costs.


                                             -   3-
•   The USMS should incorporate medical care and related services into its
    IGAs and contracts. Further, the USMS should renegotiate IGAs that are
    incurring high costs for outside medical services.

•   USMS districts should utilize to the fullest extent possible local jails with
    the broadest range of in-house medical capabilities in order to reduce the
    need for costly outside referrals.

•   The USMS should utilize hospitals with locked wards to reduce guard
    costs associated with outside care.

•   The USMS through its Cooperative Agreement and Excess Property
    Programs should assist local jails in developing and expanding in-house
    medical capabilities to reduce the need for outside medical care for
    federal prisoners.

•   The USMS should work with the Immigration and Naturalization Service
    (INS) (since transferred to the Department of Homeland Security) and
    BOP to determine the feasibility of negotiating single contracts for medical
    and guard services to meet the needs of all three agencies.

•   The USMS should examine the feasibility and requirements of contracting
    out prisoner medical care.

•   USMS districts should be alerted about what signs and symptoms to look
    for and precautions to take relative to potential contagious diseases.

•   The USMS should make every effort to provide at least 48 hours notice of
    planned moves and to obtain medical records and medications prior to
    transporting a sick prisoner.

•   The USMS should reexamine its booking forms and procedures to ensure
    that they adequately cover prisoner health status.

      In addition, Booz-Allen & Hamilton, Inc., in a Streamlining Review
issued July 2002, recommended that the USMS contract for a managed care
health system to streamline prisoner medical care.9 The report stated that
the USMS managed care system should provide for the following:

•   Negotiated contracts with medical facilities and providers, claims
    processing and payment, utilization review and quality management that


       9
           The USMS has been pursuing this initiative.


                                             -   4-
    enables USMS districts to arrange for appropriate prisoner health care at
    substantial savings to the taxpayer.

•   A managed care network with community physicians, hospitals, ancillary
    service support systems, and other ancillary services to support each site
    where USMS prisoners require outside medical care and are housed in a
    major-use detention facility.

•   An automated centralized medical claims system to process and re-price
    valid claims for medical care and supporting medical services provided to
    USMS prisoners.

•   Development of a preferred provider network, administration, referral
    management, denial of care, claims processing and payment
    management. The contract should also include a utilization and quality
    management program, referral management and discharge planning.




                                     -   5-
                  FINDINGS AND RECOMMENDATIONS

       1.   INTERNAL CONTROLS OVER OUTSIDE MEDICAL CARE
            COORDINATED BY DISTRICTS WERE INCONSISTENT AND
            IN SOME CASES NEARLY NON-EXISTENT

            Internal controls over outside medical care at the district offices
            we reviewed are inconsistent and in some cases almost non-
            existent. We noted weaknesses in the internal control structure
            throughout the process, from procurement through payment.
            Districts are not reconciling invoices with pre-authorizations, in
            some cases because there are no pre-authorizations with which
            to reconcile. Prisoner files are often incomplete, sometimes non-
            existent, and medical procedures are not consistently entered
            into the Prisoner Tracking System (PTS). Financial transactions
            are not classified consistently in the Financial Management
            System (FMS). Violations of the Federal Acquisition Regulations
            are commonplace. Of significant concern is the fact that while
            the district operations appear to be awash in internal control
            problems, the USMS’s Program Review Office, previously tasked
            with reviewing district operations, has been all but dismantled,
            leaving district offices little in the way of oversight, guidance,
            and feedback.

Background

     USMS district officials have the authority (upon recommendation of a
competent medical authority or physician) to acquire and pay for reasonable
and medically necessary care, both emergency and non-emergency, to
ensure the well-being of all USMS prisoners. However, it is not the policy of
the USMS to provide either elective or, with some exceptions, preventive
medical care.

     USMS policy requires that a set of procedures be followed to provide
reasonable assurance that medical and guard payment transactions are
properly authorized, accurately recorded, and fully supported
(See Appendix VII).

      In our review of the USMS districts’ management of outside medical
care, we noted internal control weaknesses throughout the aforementioned
process. A discussion of the specific areas of concern follows.




                                     -   6-
Pre-Authorization of Medical Procedures

       Districts were not consistently reconciling invoices from health care
providers to pre-authorizing documents such as a requisition or medical
log.1 0 In many cases, this was because there were was no authorizing
document with which to reconcile. The pre-authorization process is required
to ensure that only necessary and reasonable medical procedures are
performed on prisoners in USMS custody.

       As shown in the following table, our review revealed that, more often
than not, districts did not document the authorization process. In 8 of the
14 districts we examined, invoices were not being reconciled to pre-
authorizing documents. In six of those districts, there were no pre-
authorizing documents to reconcile to. In those cases, the first written
documentation pertaining to a particular medical procedure was the invoice
received from the health care provider. Absent a reliable audit trail, district
personnel could not readily determine whether such an invoice was a valid
billing, a duplicate billing, or a fraudulent claim. In fact, when asked how
they detected duplicate payments, personnel in two districts stated that they
relied on the re-pricing contractor to detect the double billings.




       10
           Authorizing document can be a purchase order, requisition, or a notation in the
prisoner’s medical log. The information must be enough to indicate that the procedure was
approved by the district office and can be reconciled with the medical invoice. This
information would normally include: 1) health problem and procedure; 2) prisoner name
and number; 3) dollar amount obligated; 4) name of medical provider.



                                           -   7-
        PRE-AUTHORIZATION OF OUTSIDE MEDICAL PROCEDURES
                                          Bills
                          Authorizing Reconciled to Duplicate
          District Office Documents Authorization    Claims 11
       Arizona                Yes          No       $      847
       Central California               No                No               15,494
       DC District Court               Yes                Yes                       0
       Middle Florida                  Yes                Yes                 750
       Northern Illinois                No                No                   800
       Kansas                          Yes                Yes                6,867
       New Mexico                      Yes                Yes                      42
       Eastern New York                 No                No                32,596
       Western New York                 No                No                10,853
       Eastern Pennsylvania             No                No                   146
       South Carolina                  Yes                Yes                  536
       Southern Texas                  Yes                No                 7,923
       Western Texas                   Yes                Yes               22,511
       Southern California              No                No          $   157,914
       Source: District records and Contractor records.



Recording of Financial Transactions in the Financial Management
System (FMS)

      Districts were not obligating funds in the FMS upon procurement of
medical services. The districts were not entering an estimated obligated
amount prior to or immediately after the medical services has been
performed. This stemmed from the fact that procedures were often not pre-
authorized, and as such did not enter the financial system until an invoice
was received. Thus, the process approaches a cash basis of accounting
wherein expenses are recorded when the y are paid rather than when they
are incurred, as is required under the accrual basis of accounting. The
problem was exacerbated by the fact that invoices are often batched, with

     11
          Duplicate claims detected by the re-pricing contractor during FY 2002.



                                             -   8-
batch sizes ranging from several invoices to several hundred. Batching of
invoices is a valid method of processing financial transactions, and in some
instances it is impractical to do otherwise. But in the absence of other
documentation, batching makes it difficult to track costs related to individual
prisoners.

       Additionally, we noted some inconsistency in how transactions were
classified once they were obligated. In the case of medical procedures, the
districts used two sub-object codes to track expenditures for outside medical
care, as follows:

      •   Sub-Object code 1154 - Fees for medical examinations by private
          physicians except those in contemplation of testimony in court by
          the examining physician. Includes physical examinations of: 1)
          injured persons, where trial may result; 2) defendants in criminal
          cases who allege illness to delay trial; and 3) witnesses who allege
          illness for failure to respond to subpoena.

      •   Sub-Object code 2515 - Medical hospital services charges by
          institutions, including hospitals and clinics, but not private
          physicians, for: 1) medical and dental care of prisoners, including
          charges for prescribed medicines, prosthetic devices, and other
          treatment and devices, e.g., glasses, hearing aids, braces,
          necessary for the health and well being of prisoners; 2) physical
          examination of employees; and 3) expenses of health units.

       The information accumulated by the above-mentioned cost codes is
used by the USMS to determine how funds have been expended for tracking
and planning purposes. However, our audit testing determined that some
districts used only sub-object code 2515 and did not use sub-object code
1154 in any of its transactions, and some that used it only sporadically.

       Similarly, there were inconsistencies in the obligation of charges for
hospital guard services. About half of the districts were obligating hospital
guard expenses to sub-object code 1150 (Payment of compensation to
temporary guards), while the other half were obligating guard expenses to
sub-object code 2555 (Charges for guard services provided under contract
agreement). Inconsistencies aside, the current code structure does not
differentiate between hospital related guard services and other guard
services, which makes it difficult for management to track guard service
costs related to outside medical services provided to USMS prisoners.

      Both the delays in obligating and the inconsistencies in classifying
outside medical costs pose a problem for USMS management, which requires


                                     -   9-
accurate and timely financial data in order to accurately evaluate program
performance and effectively plan for future resource needs.

Prisoner Tracking System

       The Prisoner Tracking System1 2 (PTS) is a distributed database system,
operating as a separate database in each of the 94 federal judicial districts
that provides case management support for individual prisoners, including
the tracking and monitoring of medical care. USMS districts are required to
use the PTS for tracking prisoners’ medical information. Specifically,
districts are required to document in the PTS whenever a prisoner receives
outside medical treatment. The data fields include: 1) medical service date,
2) prisoner name and number, 3) dollar amount obligated, 4) name of
medical provider, and 5) health problem and procedure.

       Despite this requirement, our audit testing revealed that 1 of the 14
districts did not record any of the required information into the PTS.
Another district entered only partial information. Further, our review of the
entire PTS database revealed that several districts outside of the selected 14
districts were not entering data into the PTS. As will be discussed later,
many of the districts were not entering prisoners’ TB test results into the
PTS, as required by USMS policy. Without complete and consistent medical
data the USMS cannot readily determine what medical procedures have been
performed on any given prisoner, and cannot make informed decisions
regarding the welfare of the prisoner or other parties involved.

Prisoner Case Files

       In the absence of a fully implemented PTS, district offices must rely on
hardcopy prisoner case files. In addition to photographs and fingerprints,
the prisoner case files contain vital medical information such as: 1) a record
of all medical care afforded the USMS prisoner, including medications or
medical equipment required while in transport; 2) whether the prisoner has
been cleared for TB; 3) a record of outside medical billings; and 4) whether
the prisoner has private insurance. The documents are an essential control
in facilitating effective and secure prisoner transport. In addition, the
records are useful to district accounting personnel in verifying medical bills.

       However, here too we found that the district offices were less than
diligent in tracking prisoner medical care. In 8 of the 14 district offices

       12
          Currently, the OIG is conducting an application controls review of the PTS to
assess the effectiveness of application controls and to perform data integrity testing. The
forthcoming report will provide a comprehensive analysis of the PTS application.



                                           -   10 -
reviewed, we found that prisoner case files were incomplete. Two districts,
the Central District of California and the Southern District of California, did
not maintain case files at all. While most of the districts were able to
provide a printout of medical expenditures, we were unable to locate medical
release forms or TB clearances in most cases.

       We reviewed a statistical sample of outside medical transactions using
the USMS criteria for reasonable and necessary procedures and determined
that in 26 percent of the sample medical procedures reviewed, the auditors
could not determine whether the procedure met the USMS criteria, in part
because of the lack of reliable documentation available at the district offices.

       The lack of documentation at the district offices has both cost and
public safety implications. The USMS cannot effectively manage costs if it is
not aware of where those costs are being incurred. For example, several
district offices had prisoners with high risk, high-cost medical problems, such
as a terminal illness. In such instances, the USMS can request that
prisoners be transferred from unsecured non-federal medical institutions to
secured BOP medical facilities, or in some cases suggest to the court or the
U.S. Attorney that the prisoner be released or placed on bond. This can
reduce medical care and security costs, as well as reduce the risk exposure
involved in transport to and from outside medical facilities. However,
without an effective system for tracking these costs, USMS personnel cannot
make timely or informed decisions in these matters.

Federal Acquisition Regulations

     We found that USMS district offices are not fully complying with the
Federal Acquisition Regulation (FAR) by employing simplified acquisition
procedures when procuring prisoner health care services that exceed the
$2,500 threshold for micro purchases.

      A memorandum dated December 3, 1999, from the USMS General
Counsel to the USMS Director stated that prisoner medical services were
being procured in violation of the FAR at many USMS district offices. The
General Counsel citing 31 U.S.C. §1501, stated that prisoner medical
services were being entered into by individuals without contracting authority
or by contracting officers in excess of the limits of their delegated authority.

      The General Counsel further stated that the USMS’s failure to enter
into binding agreements for medical services violated the provisions of 31
U.S.C. §1501 because agency expenditures for services must be supported
by documentary evidence of a binding agreement between the agency and



                                     -   11 -
the service provider before the expense can be properly recorded as a valid
obligation of the United States.

      According to the USMS General Counsel’s memorandum, if prisoner
medical services are procured in the absence of a binding agreement,
expenditures associated with the procurement cannot be recorded as valid
obligations of the USMS. If these expenditures are not properly recorded
and accounted for, the USMS may violate the Anti-Deficiency Act (ADA) by
obligating funds in excess of available appropriations.1 3

       The General Counsel warned that in order to prevent violations of the
FAR, 31 U.S.C. §1501, and the ADA, prisoner medical services acquired on
behalf of the USMS must be procured pursuant to orders issued by
contracting officers with appropriate levels of delegated authority to bind the
government. However, despite these warnings, we determined that some
districts continue to procure medical services in violation of federal
regulations.

      For the 14 sites audited we selected a random sample of 900 voucher
payments from a universe of 6,525 payment transactions for review. Based
on our audit testing we determined that 83 of the 164 payment transactions
that exceeded $2,500 were not in full compliance with federal procurement
regulations because the medical service providers did not have binding
written agreements with the USMS.




      13
          According to the ADA, an officer of the U.S. Government may not authorize an
expenditure or obligation exceeding an amount available in funds appropriated.


                                         -   12 -
                 Prisoner Outside Medical Treatment Procured
                            in Violation of the FAR
                                                          Number of
                                                            outside       Number of
                                                            medical      transactions
                                       Dollar            transactions     exceeding
                             Dollar amount in              reviewed     $2,500 without
                            amount   violation             exceeding       a binding
      Districts            reviewed of the FAR              $2,500        agreement
Arizona                    $ 39,741 $    20,032                     3                 3
Central California          361,328                  0            34                     0
DC District Court           103,047           96,080                8                    8
Eastern Pennsylvania         63,979      Unknown                    5           Unknown
Kansas                      156,938           93,604              14                     7
Middle Florida               65,916           55,066                8                    8
Northern Illinois           329,881           53,488              11                     2
New Mexico                   38,465           23,327                3                    3
Eastern New York             69,384                  0              5                    0
Southern Texas              111,928           10,638                2                    2
Southern California         665,956       431,499                 31                    31
South Carolina              173,188                  0            20                     0
Western Texas               762,552       193,150                 14                    14
Western New York             55,820           50,448                6                    6
Source: District records



      We tested transactions exceeding the $2,500 simplified acquisition
procedure threshold to determine compliance with the FAR.1 4 We
determined that the USMS was in compliance with the FAR if the medical
provider had a: 1) contract with the USMS, 2) contract with another federal
agency, 1 5 or 3) contract with the local detention facility and the local
detention facility was being reimbursed by the USMS.

       14
          Purchases equal to or under $2,500 may be made without securing competitive
quotations if the price is considered fair and reasonable by the contracting officer.

       15
           The Federal Detention Center in Philadelphia, Pennsylvania has a medical services
contract with Medic al Development International. This contract provides comprehensive
medical services to both BOP and USMS prisoners.


                                          -   13 -
       In many cases single invoices were below the $2,500 limit. However,
districts often consolidate multiple prisoner treatments when paying for
outside medical costs. Districts will often batch a large number of small
payments (less than $500) owed to a single hospital, clinic or doctor into
one large payment. These consolidated payments normally range between
$1,000 and $100,000. By definition these payments, in aggregate,
exceeded the $2,500 micro-purchase threshold.

      Aside from complying with the FAR, by not negotiating contracts,
USMS districts could miss the opportunity to negotiate rates below Medicare.
We found that districts with negotiated contracts were able to obtain
pharmacy discounts and specific medical procedures below Medicare rates,
as was the case in the District of South Carolina, which had a contract with a
private vendor. The contract statement of work provides that the USMS
receives a discount of not less than 37 percent on the list price of drugs.
The audit team determined that if the District of Middle Florida had a similar
contract, it would have saved $10,251 on just the four payments that the
audit team reviewed.

       Conversely, procuring medical services without a contract, other than
a micro-purchase,1 6 enables a supplier to obtain government business
without competition. Not establishing a network of contracted health care
providers increases the opportunities for fraud, waste, and abuse by allowing
district officials to select medical providers directly, rather than through a
competitive process.

Office of Program Review

       The internal review function within the USMS falls under the
jurisdiction of the Management and Budget Division, specifically the Office of
Program Review. Organizationally, the Program Review Office consists of an
eastern office, located at USMS Headquarters, a central office, located in
Houston, Texas, and a western office, located in Denver, Colorado.
Historically, Program Review’s primary area of responsibility has been the
performance of detailed reviews of district operations. The reviews are
comprehensive in scope and cover nearly all aspects of district activity,
including: 1) prisoner transport, 2) asset forfeiture, 3) contract and IGA
billings, 4) judicial security, and 5) general management and administration.
The inspection reports, signed by the USMS Director, contain findings and
recommendations, and require a formal resolution process, documenting
that necessary corrective actions have been taken.


      16
           Purchases that in the aggregate are equal to or less than $2,500.


                                           -   14 -
       On April 19, 2000 the USMS Deputy Director issued a memorandum
directing the Program Review Office to suspend its reviews of USMS district
operations. Prior to the suspension of district reviews, Program Review staff
conducted about 30 district reviews annually, allowing for reviews of each of
the 94 districts every 3 years. The action was defined as a short -term
solution to critical staffing shortages in the field, which required that
Program Review staff be detailed to district offices in need of administrative
support. However, as of the last day of our fieldwork on October 28, 2003,
the district review function remained on hold. According to USMS officials,
the reason for the continued suspension is that the USMS plans to
reorganize its internal review function, and that district review activities will
remain on hold pending completion of the reorganization.

       In the three years since the initial suspension of these district reviews,
the Program Review Office has existed in a state of limbo. The staff is now
restricted to performing property management reviews, and does so only on
a special request basis. Staffing levels at the eastern office have dropped
from six to two analysts. The staff assigned to the western office in Denver,
Colorado, has been reduced from six to four analysts, with staff detailed to
the Witness Security Program. The central office in Houston, Texas, has
been closed.

       Given the pervasiveness of the internal control weaknesses at the
district level that we encountered throughout this audit, it is difficult to
justify the effective dismantling of the agency’s internal review function. We
believe that USMS management needs to reconsider its decision to suspend
detailed district reviews.

Recommendations

      We recommend the USMS:

1.    Ensure that districts adhere to established procedures for authorizing,
      recording and tracking outside medical procedures.

2.    Re-initiate operational reviews of USMS district office.




                                      -   15 -
       2.   THE USMS IS INCURRING MILLIONS IN UNNECESSARY
            COSTS FOR OUTSIDE MEDICAL CARE

            While the USMS has achieved significant cost savings in recent
            years through its re-pricing efforts, it still incurs millions annually
            in unnecessary costs related to outside medical care. The
            largest portion of those costs were attributed to the re-pricing of
            medical billings at the Medicare rate, rather than the lesser of
            the Medicare or Medicaid rate, as required by 18 U.S.C., §4006.
            As a result, we estimate that the USMS spent about $7 million
            more on outside medical services in FY 2002 than it had to
            based on recent studies that show that nationwide Medicaid
            rates average about 81 percent of Medicare rates. Further, the
            USMS incurred over $100,000 in outside medical costs that
            should have been paid by the prisoners’ private insurance.
            Finally, the current structure of USMS outside medical care
            suffers from an underutilization of private sector resources. The
            current contract relieves district offices of none of the
            administrative burden of program, and if anything adds a layer
            of bureaucracy. The USMS expends roughly $1 million in
            administrative costs performing activities that could be better
            and more efficiently handled through outsourcing to a private
            health care provider. The USMS has developed but has yet to
            implement plans for a national health care contract that would
            more effectively streamline prisoner medical services and would
            remedy the Medicare versus Medicaid issue.

Medicare Versus Medicaid

      Title 18 U.S.C. §4006, as amended by Public Law 106-113, enacted in
November 1999 states: “Payment for costs incurred for the provision of
health care items and services for individuals in the custody of the United
States Marshal Service shall not exceed the lesser of the amount that would
be paid for the provision of similar health care items and services under:
1) the Medicare program under Title XVIII of the Social Security Act; 2) or
the Medicaid program under Title XIX of such Act of the State in which the
services were provided.”

       In January 2001, the USMS implemented a contract with private health
care contractor HealthNet, Inc., to process medical billings for USMS
prisoners receiving outside medical services. Under the contract, district
offices forward all prisoner medical billings to the contractor for re-pricing at
the Medicare rate. The re-priced bills are then sent back to the district for
payment to the medical provider. In FY 2002, the first full year following


                                      -   16 -
implementation, the USMS reported savings of $20.2 million in prisoner
medical costs.

      While the costs savings achieved were significant, they are less than
what the USMS could have achieved had it paid for outside medical care at
the lesser of Medicare or Medicaid. Rates for Medicaid can vary significantly
from state to state, but with few exceptions they are lower than their related
Medicare rate, sometimes markedly so. Medicaid rates for physician fees in
California, for instance, averaged about 65 percent of Medicare charges,
based on a recent study conducted by the Lewin Group, prepared for the
Medical Policy Institute, and issued in June 2001. Medicaid fees in New York
averaged only 36 percent of commensurate Medicare fees, and New Jersey
averaged about 41 percent. Nationwide, Medicaid fees averaged about 81
percent of Medicare fees, according to the study.

       Based on that percentage, we estimated that the USMS could achieve
additional annual cost savings of roughly $7 million by paying the lesser
Medicaid fees where appropriate. USMS officials we spoke with were aware
of this problem and stated that the congressional amendment was
unanticipated and they were negotiating for the current re-pricing contract.
They said that the additional requirement of paying the lesser of Medicaid or
Medicare could not be accomplished by the agency without additional
program funding, as it would have required the development of a database
that could access Medicaid rates from the 50 states, as well as the national
Medicare rate system.

      USMS officials at the exit conference stated that hospitals are not
compelled to accept Medicaid rates in payment for medical care under
§4006, and as a result, annual cost savings may be less than estimated.
Nevertheless, the USMS is currently negotiating for a national health care
contract, as will be discussed later in this section, that will, among other
things, address the shortcomings of the current contract with regard to re-
pricing at the lowest rate authorized.

Approval of Non-Emergency Outside Medical Care

      In August 1999, the USMS distributed USMS Publication No. 100
“Prisoner Health Care Standards” to the districts. The purpose of the
publication was to define “reasonable and medically necessary care” for
prisoners in custody of the USMS, and to enumerate the specific elective or
preventive medical interventions and procedures that are not authorized for
payment by the USMS, absent a court order.




                                    -   17 -
       The publication refers to health care services and products that are to
be charged to the USMS or that require prisoners in USMS custody to make
visits anywhere outside of the facility to which they are confined. Services
and products provided to USMS prisoners within correctional facilities at no
cost to the USMS are not prohibited.

      As previously stated, not all USMS districts reviewed were pre-
authorizing prisoner medical procedures and were not consistently consulting
with the Office of Interagency Medical Services (OIMS) and its staff of
medically trained professionals concerning non-emergency medical care.
Only 8 of the 14 districts reviewed reported ut ilizing the professional
resources available at the OIMS for advice on whether or not to approve
outside medical procedures. Consequently, medical procedures were
approved that should have been denied as unnecessary.

      From the universe of 6,525 vouchers for outside medical billings, we
selected a random sample of 900 vouchers. In tests of procedures, at least
3.1 percent of medical procedures, totaling $18,079, were determined to be
unnecessary. For the most part, these were elective or preventive
procedures not normally authorized for payment by the USMS. Procedures
included mammograms, an MRI for lower back pain, an x-ray for carpal
tunnel syndrome, and treatment for high cholesterol. In most instances the
unnecessary procedures resulted because districts were not proactively
involved in the pre-authorization process, allowing the BOP1 7 or local
detention facility to dictate whether outside medical treatment was required
without notifying the USMS. Often the district office was unaware of the
medical treatment or hospitalization until a bill was received.

Prisoner Insurance

        USMS policy states that districts should request that prisoners covered
by their own health insurance use that insurance while in USMS custody. At
initial intake, the prisoner is asked to complete a USM Form 552 and disclose
medical insurance coverage information. If the prisoner has health
insurance and is willing to complete the necessary paperwork to process the
claim, the health care provider would submit all medical bills directly to the
prisoner’s insurance provider. If the prisoner has insurance but is unwilling
to assign benefits to the prisoner’s insurance provider, and significant
medical costs are involved, at its discretion, the USMS may request that the


       17
          District officials stated that the BOP often does not request or seek authorization
from the USMS when obtaining outside medical treatment for federal prisoners in USMS
custody.




                                            -   18 -
local U.S. At torney obtain a federal court order to compel use of the
prisoner’s health insurance. In addition, the USMS is not precluded from
assuming the payment of a prisoner’s health care premiums if the prisoner is
not able to do so.

       We found the issue of prisoner insurance to be largely academic
because most of the districts did not follow the policy. In 7 of the 14
districts, Form 552 was not completed. In two districts the forms were not
consistently completed. The remaining five districts had completed and
retained the forms in compliance with USMS policy.

      We noted at least one instance in which substantial medical costs were
incurred for a prisoner who, according to his case file, had private insurance.
The case involved a prisoner who had attempted to hang himself but
survived in a brain-damaged state and was confined to a mental ward. The
USMS incurred $112,944 in medical costs despite the fact the prisoner’s file
indicated that he had coverage with Blue Cross/Blue Shield. We found no
evidence indicating that the USMS district office had pursued the private
insurance.

       District officials explained that use of a prisoner’s private insurance is
problematic because insurance carriers require patients to use specific
doctors or medical facilities in order to qualify for reimbursement. This
creates security concerns because prisoners would know in advance what
provider they are going to see, and thus could coordinate escape attempts
with outside accomplices. In addition, local jails may refuse to make special
trips to transport USMS prisoners to providers specified by insurance
companies.

       The aforementioned security concerns notwithstanding, it would
appear that in cases such as the one cited above, the use of a prisoner’s
existing insurance would be an effective means of defraying the cost of
outside medical care.

National Health Care Contract

      The current structure of the USMS’s outside medical services program
suffers from an underutilization of private sector resources. The current re-
pricing contract with HealthNet, Inc., is a half-measure that not only fails to
take full advantage of congressional mandates authorizing the use of
Medicaid rates, but also leaves much of the administrative requirements for
outside medical care in the hands of district officials, rather than
streamlining the process.



                                      -   19 -
      At present the USMS is still heavily involved in the administration of
the program at the district level. Our survey of districts (see table below)
indicated program administration might require from 2 to 8 staff members,
and up to 220 work hours weekly. Service-wide we estimate total salaries
and expenses devoted to performing duties associated with providing
prisoner outside medical treatment at roughly $1.8 million annually.



               ADMINISTRATIVE COSTS ASSOCIATED WITH
                MANAGEMENT OF OUTSIDE MEDICAL CARE
                            Weekly      Weekly   Annual
               District      Hours      Costs18   Costs
        Arizona                   141 $    2400 $ 124,800
        Middle Florida                          40           681       35,402
        Northern Illinois                       11           187        9,735
        Kansas                                  57           970       50,447
        New M exico                            162           2757     143,376
        Eastern New York                         9           153        7,965
        Western New York                        12           204       10,620
        Eastern Pennsylvania                    20           340       17,701
        Southern Carolina                       35           596       30,976
        Southern Texas                         155           2638     137,181
        Western Texas                          220           3744     194,709
        Southern California                     80           1362      70,803
            Total                              942    $ 16,032      $833,7151 9
       Source: Survey of District Administrative Officers.



      The USMS had developed plans in FY 2002 to negotiate a national
health care contract to administer its prisoner outside medical program, but
was unable to implement those plans due a reprogramming of designated

       18
            Based on hourly wage for GS-9, Step 1 of $17.02.

       19
           Based on workload estimates obtained from USMS field personnel, we determined
that the district offices reviewed incurred approximately $833,715 annually in administrative
costs related to outside medical services. The districts represented approximately 46
percent of service-outside prisoner medical care, and from that we extrapolated total
administrative costs service of approximately $1.8 million.


                                           -   20 -
funds in conjunction with the creation of the Department of Homeland
Security (See Appendix X). Under the proposed contract, the health care
delivery system would be comprised of a national network of community
physicians, hospitals, and other ancillary services. Services provided to
USMS prisoners would include dialysis, pharmacy discounts, optometry,
ambulance, dental, skilled nursing facilities, and outpatient rehabilitation.

       While implementation of the proposed national health care contract
would not relieve the USMS of all administrative duties related to outside
medical care, it would reduce those duties markedly. For example, the
contract proposal would require the contractor to establish a nationwide
integrated health care delivery system, which would negate the need for
individual districts to negotiate separate health care contracts with local
hospitals. In addition, the contractor would be responsible for internal
controls such as: 1) assigning internal control tracking numbers for each
claim, 2) matching pre-authorizations against claims prior to payment, 3)
identifying, tracking and blocking duplicate or invalid claims, 4) full accounts
payable accounting and financial management reporting. Based on our
analysis of the current and proposed contracts, we estimate that the
proposed contract would reduce administrative workload by about 60
percent or $1 million. This represents funds that could be put to better use
if the USMS implemented the national health care contract.

Recommendations

      We recommend the USMS:

3.    Complete the on-going effort to negotiate a national managed health
      care contract for prisoner medical services that will remedy non-
      compliance with Title 18 USC and will effectively streamline the
      process.

4.    Enforce current USMS policy regarding the use of prisoners’ private
      insurance to cover the costs of outside medical care.




                                     -   21 -
       3.   INTERNAL CONTROLS OVER IN-HOUSE MEDICAL CARE AT
            JAILS AND EMERGENCY CARE PROCEDURES IN USMS
            CELLBLOCKS NEED STRENGTHENING

            USMS districts are not adequately monitoring local detention
            facilities to determine whether federal prisoners are receiving
            proper health care; and are not effectively initiating health care
            improvements at local jails providing substandard health care.
            USMS inspections are cursory, and more in-depth reviews
            conducted by external groups are not followed up on. Further,
            we could not determine whether the USMS was in full compliance
            with USMS policies and procedures governing emergency health
            care procedures in its own cellblock operations because there
            was some uncertainty as to what the current policies and
            procedures were. The overall lack of monitoring and follow-up
            creates an environment where misjudgments can occur, with
            health consequences to both the federal prisoner population and
            USMS personnel.

Background

       In-house medical care encompasses health care provided at local jail
clinics, as well as limited emergency care provided in USMS cellblock
operations. While the USMS has direct control over its own cellblock
operations, the USMS must monitor in-house care provided by local jails
through its jail inspections program, as well as through external review
groups.

      Initial medical screening of a federal prisoner occurs at the booking of
the individual at a USMS district office, which is often located in the local
federal courthouse. At booking, USMS deputies observe the arrestee and fill
out a booking sheet documenting the arrestee’s responses to a few basic
medical questions. The arrestees are kept in the cellblock, while awaiting
either a court appearance or transport to a BOP or local jail facility, where
medical screening will take place.

       Given the short span of time that prisoners usually spend in the
cellblock area, medical care is normally not required there. In some cases,
however, prisoners awaiting trial may have chronic medical conditions, such
as asthma or heart disease that may require medical attention. Emergency
medical situations can also occur during a prisoner’s cellblock stay.

      For basic medical screening and routine medical services for federal
prisoners, the USMS relies largely on local and contract jails, as well as the


                                     -   22 -
BOP, most of which are equipped with in-house medical clinics within their
facilities. The costs of such in-house medical services are usually covered in
the per diem rates2 0 charged to the USMS under the terms of an
Intergovernmental Agreement (IGA) in the case of a local jail, or the
contracted jail day rate in the case of a private contract facility. Services
provided in BOP facilities are done so at no cost to the USMS.

        In-house medical services provided by the jails housing federal
prisoners can vary substantially. Some local jails may have on-site medical
professionals and sophisticated medical facilities, including x-ray and dialysis
machines, TB isolation cells, and dental services. Some facilities may even
be able to accommodate minor surgical procedures. At the other end of the
spectrum are facilities with very limited health care services, where a local
deputy or administrative official may ask general medical questions to
complete paperwork necessary to process the individual. Prisoners at these
facilities must often be transported outside for procedures that are routinely
performed at jails with more comprehensive medical services.

Cellblock Medical Care And Emergency Procedures

      We toured the cellblocks in the 14 districts we reviewed and
interviewed USMS and contract personnel staffing the cellblock operations to
determine whether the districts were in compliance with USMS cellblock
medical requirements. We had difficulty determining compliance, however,
because there was some uncertainty as to what the current policies and
procedures were.

       In September 2002, the USMS Prisoner Services Division issued, in
draft, a policy directive titled, “Prisoner Health and Emergency Care,
Minimum Health Standards for Prisoners.” The draft was issued in response
to a memorandum from the Inspector General to the Director of the USMS,
dated May 6, 2002, that detailed the results of an OIG investigation of an
alleged denial of treatment to a federal prisoner held in USMS custody.

      According to the OIG memorandum, on February 2, 2001, the prisoner
in question had sustained multiple facial fractures from an assault by
another prisoner while housed at the Maryland Correctional Adjustment
Center. The prisoner received only minimal first aid at the facility. Three
days after the incident, the prisoner was transported to the USMS office in
Baltimore, Maryland, where arrangements were made for transportation to
another contract facility in Orange, Virginia. While in USMS custody, the

       20
            The Intergovernmental Agreement states that a negotiated daily rate per prisoner
will be paid by the USMS to the jail.


                                           -   23 -
report cited the prisoner’s “repeated requests” to USMS personnel for
medical treatment. It was not until February 12, 2001, a week and a half
later, that the prisoner’s injuries were treated.

        While USMS employee personnel generally thought that the contract
facility bore primary responsibility for rendering medical treatment, USMS
personnel conceded that existing USMS regulations were unclear on handling
requests for medical treatment. To address this weakness, the Inspector
General recommended that the USMS establish clear guidance for USMS
personnel on handling prisoners’ requests for medical treatment. The USMS
responded by issuing the aforementioned September 2002 draft policy on
emergency healthcare procedures in the cellblocks.

      While much of what the draft policy addressed was already contained
in USMS Policy 99-47 on cellblock operations, there were several important
changes in guidance provided to cellblock personnel. Under the current
policy, for instance, all medication held by prisoners except nitroglycerin for
heart patients must be taken away and secured when entering the cellblock.
The draft policy would allow inhalers for asthma patients, as well as
nitroglycerin for heart patients into the cellblock. In addition, all emergency
care incidents must be documented on a Form USM-210 Field Report under
the draft policy, whereas no requi rement exists under the current policy.

       As of the last day of fieldwork on October 28, 2003, the September
2002 draft policy remained in draft, awaiting the USMS general counsel’s
approval. However, we noted during the survey phase of our audit in a site
visit to the Eastern District of California that the draft policy had been
disseminated and implemented. In contrast, several of the 14 districts
reviewed during the verification phase of our audit were not aware of the
draft policy’s existence. An administrative officer in one district said that she
had no record of the policy, and that it was her understanding that the policy
was still a “work in progress.” Contrary to what we found in the Eastern
District of California, a chief deputy in another district explained that a draft
policy would never be sent to the field for dissemination.

       USMS officials at our exit conference explained the policy was still in
draft, awaiting the USMS general counsel’s approval, which begs the
question as to why a policy still in draft had been implemented in at least
one district. These inconsistencies notwithstanding, the delays in
implementation of the draft policy raises a concern given that the policy in
question was created in response to perceived failures on part of USMS
management to establish clear guidance for the appropriate action to
prevent serious injury or death to prisoners in custody.



                                     -   24 -
       Serious injury or deaths in cellblock, while rare, do occur. For
example, in February 1999, a federal prisoner died while being transported
from the cellblock at the federal courthouse in Tucson, Arizona. The autopsy
indicated that the prisoner had acute appendicitis. The prisoner and several
of his inmates had notified the cellblock officers that the prisoner was ill and
was requesting treatment. The prisoner complained of chills, stomach pain,
and the inability to urinate. Rather than being given immediate medical
treatment, the prisoner was told he would have to wait until he could receive
treatment at the local contract facility.

      By the time the van arrived, the prisoner had lapsed into
unconsciousness. Despite his condition, he was loaded, unconscious, into
the van. En route to the detention center the prisoner stopped breathing
and was at that point taken to a local hospital, where he died. The family of
the prisoner was paid $150,000 by the U.S. government in a court
settlement arising from the incident.

       Subsequent to this event, the USMS issued Policy 99-47 Cellblock
Operations, which addressed, among other things, emergency medical care
procedures. However, even if the policy had been in place before the
appendicitis incident, we are not confident that it would have made a
difference because there was no specific guidance given or training provided
to assist USMS personnel in determining when a condition requires
hospitalization.

      The American Correctional Association (ACA) standards address
emergency care response in jails and detention facilities.2 1 The ACA
standards require a four-minute response time for prisoner medical
emergencies. Further, the standards require jail personnel to be trained to
recognize signs and symptoms of conditions requiring emergency medical
care, and the methods of obtaining medical assistance.

Cellblock Equipment

       In addition to testing compliance with the primary policies and
procedures, we tested for compliance with peripheral policies regarding
cellblock equipment. The results were as follows:



       21
            The ACA is a professional membership organization dedicated to the improvement
of corrections and the development and training of correctional professionals. The ACA’s
membership consists of individuals and organizations involved in all facets of corrections,
including adult institutions and jails, community corrections, juvenile justice, institutions of
higher learning, and probation and parole.


                                            -   25 -
   •   Automated External Defibrillator

       The USMS’s Automated External Defibrillators2 2 (AED) First Responder
       Policy Directive requires that deputy marshals working in district
       offices be certified in both Cardio Pulmonary Resuscitation (CPR) and
       AED procedures.2 3 The AED program is administered by the USMS but
       serves the federal court system by protecting court personnel,
       civilians, and prisoners alike. The USMS policy specifies that two
       operational employees at each district be trained as AED instructors.
       The instructors are in turn responsible for training additional staff.
       Also, the staff is required to be certified in CPR before receiving AED
       training.2 4

       Our review determined that only six of the districts reviewed had
       provided the required AED annual training and certification to their
       deputies during 2002. Five of the districts that had not provided
       training stated that they had plans to begin training in the near future.
       However, delays in training and certifying district personnel in these
       life-saving skills could lead to the improper use of the AED and to
       possible tragic consequences for a heart attack victim.

   •   Medical Assistance Signage

       USMS policy requires that at least one sign be posted in each cellblock
       advising prisoners how to request emergency medical assistance.
       We found that 3 of 14 districts did not have signs posted. Without
       these signs, prisoners may not know that medical assistance is
       available, and as a result may not notify cellblock personnel as soon as
       symptoms appear.

   •   Prisoner Refusal of Medical Care

       USMS policy states: “If a prisoner refuses transportation and/or
       medical assistance after complaining of illness or injury, the prisoner


       22
           Defibrillators are devices that deliver an electric shock to a person experiencing a
cardiac arrest. The defibrillator sends an electric message by means of a shock to the heart
to resume contracting. Studies indicate that with each minute that passes without any
intervention, the chances for recovery are diminished by 10 percent for the person
experiencing cardiac arrest.

       23
            CPR and AED certification must be renewed annually.

       24
           CPR must be administered at the same time electric shocks are being given so
that the victim is oxygenated.


                                            -   26 -
       will be required to sign a USM-210 acknowledging a desire not to
       receive medical assistance.”

       Our review determined that many USMS employees manning the
       district cellblocks were unaware of USMS prisoner medical procedures
       that require prisoners who refuse medical treatment to sign a written
       waiver.

Local Jailhouse Medical Care

     To assess the quality of care provided to federal prisoners at local jails,
the USMS has a jail inspection program. Current USMS jail inspection
guidelines include standards established by the ACA. USMS deputy
marshals, as a collateral duty, conduct these jail inspections and submit the
reports to the district office. The reports rate the jails compliance with ACA
standards and list any medical care deficiencies noted at the jail, with
comments on plans or actions to be initiated or undertaken by the district to
correct substandard conditions.2 5

       However, we noted that the inspection reports annually submitted to
district officials are cursory and did not provide enough detailed information
(such as observations, interviews, and documents reviewed) to support
general findings that the health care provided by the jail meets the required
standards. Further, in three of the districts reviewed, deputy marshals who
had not received any training in jail inspections were performing the
inspections. Finally, jail inspector duty for deputy marshals is collateral to
their normal law enforcement responsibilities. Deputies assigned to perform
jail inspections were not specifically rated on their performance evaluations
for the quality or timeliness of their jail inspection work.

       Our audit questioned not only the quality of the USMS jail inspections,
but also their timeliness, as many reports were not being submitted annually
as required by USMS policy and procedures. In FY 2002, 8 of the 14
districts reviewed did not complete annual evaluations of the prisoner
medical care provided by all their major use detention facilities. The
following table lists the results of our jail inspection audit testing by district
office.




       25
           In addition, a pilot program initiated in 1994 enabled USMS districts to utilize
State inspection reports in lieu of reports prepared by the districts. As with the USMS
inspection report, deficiencies noted in the state report are to be discussed with facility
administrators to correct the condition.


                                            -   27 -
             SUMMARY OF USMS DISTRICT JAIL INSPECTIONS
                       Jail Inspections Jail Inspections
                           Required        Submitted
          Districts      in FY 2002       in FY 2002     Findings
    Arizona                    9                6           Yes
    Central California                  2                     1               No
    DC District Court                   8                     0               N/A
    Middle Florida                     12                     3               No
    Northern Illinois                   6                     6               No
    Kansas                              9                     9               No
    New Mexico                          6                     5               Yes

    Eastern New York                    2                     1               Yes
    Western New York                    7                     7               No
    Eastern Pennsylvania                1                    02 6             No
    South Carolina                     11                    11               Yes
    Southern Texas                     21                    15               Yes
    Western Texas                      24                    24               No
    Southern California                 2                     1               No
    Source: District records



       There also appeared to be little evidence of any follow-up on the
inspection reports. The lack of follow-up included external inspections, as
illustrated in the discussion below concerning the Department of Justice
(DOJ) Civil Rights Division’s review of the Nassau County Correction Center
(NCCC) in New York

Nassau County Correction Center

       On April 19, 1999, the DOJ notified Nassau County of its intent to
investigate the NCCC to determine whether its conditions violated inmates’
constitutional rights. The DOJ conducted the investigation pursuant to the
Civil Rights of Institutionalized Persons Act 42, U.S.C.A. 1997. On
September 11, 2000, the DOJ issued its letter of findings containing
evidence that the NCCC had, through deliberate indifference to inmates’

      26
           Inspection report was submitted without the health care section completed.


                                            -   28 -
serious medical needs, subjected its inmates to conditions that violated their
constitutional rights and caused them grievous harm.

        The parties subsequently entered into a settlement agreement to
litigation. The following is a partial list of some of the actions that the NCCC
was required to take to improve prisoner health care:

•   Security personnel trained in first response to medical emergency
    situations.

•   Medical director must be a qualified and licensed physician.

•   24-hour on-site full-time physician.

•   The medical contractor must provide and maintain monthly reports of
    medical staff positions and vacancies.

•   Intake screening to be performed on the prisoner’s day of arrival.

•   Blood tests for syphilis.

•   Pneumococal and influenza vaccinations provided.

•   Hepatitis C treated in accordance with CDC guidelines.

•   Full health assessment within (7) days of arrival if history and visual
    indicate good health.

•   Sick call five days a week.

•   Establish sick call policies.

•   No inmate shall be disciplined for accessing health care.

•   Chronic disease registry (list of prisoners with chronic diseases).

•   Written chronic disease treatment guidelines.

•   Only trained and qualified medical staff shall administer medications.

•   Drug profile system – listing adverse reactions.

•   Seven day supply of medications for released prisoners.



                                      -   29 -
•   Policies and procedures for maintaining health records.

•   NCCC shall develop and implement written guidelines for female medical
    care including routine screening for pregnancy, sexually transmitted
    disease, HIV counseling, and routine gynecological and obstetric care.

       USMS policy requires that a written report must be prepared by the
district office and submitted to the Prisoner Services Division following the
issuance of any court order related to the conditions of confinement at a
detention facility used by the district. However, a report on the NCCC court
settlement was not submitted to the PSD.

       Further, the USMS entered into an IGA with the NCCC in May 2000,
shortly after the DOJ investigation had begun, and completed its own
inspection in September 2000 at the same time the DOJ was releasing its list
of findings. The USMS inspection listed no deficiencies.

       The most recent USMS jail inspection of the NCCC was completed on
January 22, 2003. That inspection report listed the jail as partially compliant
in medical, dental, and mental health appraisals. The inspector’s only
comments in the January 2003 report were: 1) the facility performs a full
medical and mental health screening upon arrival; 2) dental inspections
were performed within 14 days of arrival, but only to look for any major
dental problems; and 3) full dental inspections were not completed within
the first 14 days.

      We interviewed district personnel supervising prisoner operations and
found that while they were aware of the NCCC litigation, including the
settlement agreement, they were largely indifferent towards the issues
brought up by it. Our review determined that the inspector did not properly
address the DOJ investigative findings or settlement agreement
requirements in either the September 2000 or January 2003 inspection
reports.

Conditions of Confinement Reviews

      In FY 2000, the DOJ initiated a program to assess the conditions of
confinement at 40 of the largest non-federal institutions housing federal
prisoners. The review process is referred to as the Conditions of
Confinement Reviews (CCR) Program. The purpose of the program is to
ensure that non-federal facilities housing federal detainees: 1) are safe,
2) are humane, 3) protect detainee statutory rights, and 4) protect
detainees’ constitutional rights. The impetus for the program arose from the



                                     -   30 -
DOJ’s Strategic Goals, one being to protect American society by providing for
the safe, secure and humane confinement of persons in federal custody.

        Toward that end, in June 2000 the DOJ contracted with
PriceWaterhouseCoopers, LLP (PwC) to implement a program to review the
conditions of confinement for federal prisoners and detainees in non-federal
jails and prisons. The criteria for the assessments were comprised of 59
core standards developed by the DOJ to determine whether detention
facilities are safe, humane, and protect individual rights.

      As was the case with the DOJ’s review of the NCCC, we noted that the
USMS had not taken steps to ensure that local jails initiated corrective
actions on medical deficiencies reported in the CCRs of federal prisoners
detained at local detention facilities.

       The following table lists the CCRs completed on detention facilities
utilized by the USMS districts reviewed in this audit. The table also shows
the health care related findings at each facility and whether the district took
sufficient action with these facilities to improve the stated conditions.



                    CONDITIONS OF CONFINEMENT REVIEWS
                                   Significant     Districts
                                     Health     Verified That
                        Detention     Care        Jails Took         Date of
   Districts             Facility   Findings     Corrective           CCR
                                                    Action
Arizona            CADC                 7      No                   NOV 2000
Central                                        No (District not
California         San Bernardino       3      aware of report)     DEC 2000
Middle Florida     Hillsborough
                   County jail          3      No                   SEP 2001
Kansas             CCA                  0      N/A                  SEP 2001
New Mexico         Dona Ana            12      Yes                  JAN 2001
Western            El Paso              8      No                   JAN 2001
Texas
Southern           San Diego
California         Correctional Center             7        No      JAN 2002
 Source: District records and interviews with district officials



      Seven districts had contracts or IGAs with detention centers that had
received CCRs. As indicated in the above table, six of the detention centers
had significant health care issues.


                                            -   31 -
       The USMS PSD or contracting division requested a response and
corrective action plan for each CCR finding from the detention center. We
observed that in one case, the findings were responded to only in an
advisory capacity. The detention administrator stated in his reply that he
totally disagreed with some findings and other findings could only be
corrected if the USMS increased its per diem rate.

       Although we did observe that some detention centers submitted
corrective action plans, we saw no evidence that the affected district took
any action to ensure the plan was fully implemented. District officials told us
that they either did not know a CCR had been performed or were unaware
that the detention center had submitted a corrective action plan. One
official stated that the district would not get involved unless directed by
USMS Headquarters.

Conclusion

        USMS internal controls over monitoring of in-house medical care at jail
facilities need strengthening and revision to ensure that adequate health
care is provided to federal prisoners in USMS custody. In the case of local
jails, a lack of proper and thorough jail monitoring and adequate follow-up
by the districts does not provide assurance that USMS prisoners are
receiving proper and adequate health care services. Similarly, lack of
compliance with established cellblock policies and procedures substantially
increases the possibility of prisoner injury or death, and leaves the
government open to successful litigation.




                                     -   32 -
Recommendations

     We recommend the USMS:

5.   Require that a management plan be created that ensures that deputy
     marshals are in compliance with cellblock health care policy and that
     they receive annual CPR and AED training in order to maintain
     certification.

6.   Strengthen the jail inspection program by:

     a.   Ensuring that districts comply with USMS policy requiring an
          annual jail inspection. The PSD should maintain an IGA
          database which includes the date of the latest inspection.

     b.   Ensuring that district employees assigned as jail inspectors
          attend inspection training, including refresher courses, that
          contains a module on prisoner medical care. Employees
          conducting jail inspections should receive performance
          evaluations that include jail inspections as a rating element.

     c.   Requiring U.S. Marshals to review and improve their current jail
          inspection requirements. The reports for prisoner medical
          services should be more detailed and include supporting
          documents. The assessment tools provided in the CCRs should
          serve as a guide in improving the reports.

     d.   Requiring districts to follow up on all CCR findings at least three
          years after the review has been completed. USMS inspection
          reports conducted on jail facilities that have submitted corrective
          action plans should include certification by the jail inspector that
          the jail is in compliance with the plan.




                                   -   33 -
        4.    TRACKING AND MONITORING OF COMMUNICABLE
              DISEASES

              USMS tracking and monitoring of communicable diseases, such
              as TB, hepatitis, and HIV/AIDS, is not consistent from district to
              district, and in some districts is not done at all. Current USMS
              policy concerning communicable diseases addresses TB only.
              However, we found little evidence that districts were acting in
              accordance with that policy. Many districts are not performing
              initial intake screening of prisoners for TB, and many do not
              maintain information on prisoners’ TB status. In general, USMS
              districts rely on local jails to test and monitor TB status. This is
              problematic because local jails do not always test for TB, and are
              not always timely when they do test. Formal policies concerning
              management of hepatitis and HIV/AIDS do not exist at the
              national level or local level. Failure to effectively track and
              monitor communicable diseases places at risk all parties involved
              in the judicial process.

      Communicable diseases are more prevalent among prisoner
populations than the general public. This is particularly true of TB,2 7 where,
according to the World Health Organization, prisoner populations are among
the groups most at risk because their overall health status tends to be poor,
and because they live in a densely populated environment conducive to the
spread of airborne diseases, such as TB. According to the National
Commission on Correctional Health Care (NCCHC) report to Congress, dated
May 2002, there were an estimated 1,400 cases of active TB in the U.S.
prisoner population during 1997, with the infection rate in jails (versus
prisons) being about 17 times that of the general U.S. population. In
addition, an estimated 566,000 inmates with latent TB infection were
released in 1996, the overwhelming majority from jails.2 8

      Rates of infection for both hepatitis C and HIV/AIDS, for which there
are no known cures, were similarly skewed. The most recent data available

       27
           The bacteria called Mycobacterium tuberculosis cause the disease of tuberculosis
(TB). TB bacteria usually attack the lungs, grow, and can spread through the blood to the
kidney, spine and brain. Active TB is an airborne contagious disease. It is transmitted fro m
a person that has active TB of the lungs or throat via coughs or sneezes. Anyone nearby
may contract the infection when they breathe in these bacteria.

       28
           Latent TB infection in contrast to active TB is not contagious. However,
individuals with latent TB infection could develop active TB, especially if they have
compromised immune systems. Like active TB infection, which can be cured through
medical treatment, latent TB can also be treated so that individuals never develop the
disease.


                                           -   34 -
indicated prisoner infection rates of 18.6 percent for hepatitis C were over 9
times that of the U.S. population. Prisoner infection rates of .5 percent for
AIDS were more than 5 times the prevalence in the U.S. population. The
rates for HIV infection were about the same as AIDS in jail populations at
four to six times the prevalence, and slightly more in prison populations at
eight to ten times the prevalence in the U.S. population.

      In 1998, the USMS implemented its policy on the control of TB in the
prisoner population. The purpose of the policy is to ensure that USMS
prisoners who have active TB are identified as soon as possible and isolated
from other prisoners, deputies, and other staff to prevent the spread of the
disease. The policy outlines procedures for identifying and isolating prison
detainees who have active TB disease, to prevent the disease from
spreading to fellow prisoners, law enforcement officials, or others at risk of
exposure.

       TB is the only infectious disease addressed by USMS policy. However,
this is not to say that the USMS does not concern itself with other infectious
diseases. On April 16, 2003, for instance, the USMS issued an advisory
notice with guidance on Severe Acute Respiratory Syndrome (SARS) to all of
the USMS districts. Further, the USMS provides guidance to staff on
reducing the risk of exposure to blood borne diseases, such as hepatitis C
and HIV/AIDS. However, with regard to tracking and monitoring, TB
remains the only communicable disease specifically addressed in written
USMS policy.

Initial Screening for TB

       USMS policy requires that prisoners be visually screened for symptoms
of TB when taken into custody by the USMS. The policy further states that if
a prisoner is suspected of having or has been diagnosed with TB, the district
should immediately report the case to the OIMS, which monitors each case
of active TB and works with the districts and courts to safeguard prisoner
and public health during any prisoner transfers.

       We determined that although some districts perform an initial cursory
screening of prisoners for TB, there was no supporting evidence to indicate
that any of the districts were actually conducting initial TB screenings. In
fact, district officials at four of the districts reviewed stated that they did not
screen for TB, but instead relied on the local detention facility for initial
screening. Another five stated that they do some form of initial intake
screening for TB, but nothing was done to document this on district intake
forms.



                                       -   35 -
       Furthermore, we determined that at least four of the districts reviewed
failed to notify the OIMS of prisoners that had been diagnosed with TB. As a
central contact point the OIMS plays an important role monitoring TB and
the potential for an epidemic among the federal prison population. To do so,
however, the OIMS must be properly notified of active TB cases.

Documenting TB Results

       USMS policy and procedures require that TB test results be
documented in the PTS and on the USM Form 553. 2 9 Once completed, copies
of the Form 553 are provided to: 1) the district office, 2) JPATS, 3) the local
jail, and 4) the OIMS. Standard use of this form ensures that TB clearances
are verifiable and also reduces the potential for duplicate testing of USMS
prisoners. The form must be signed and dated by a health care professional.

       To determine whether USMS personnel adequately screened prisoners
for communicable diseases, such as TB, hepatitis, and HIV/AIDS, we
interviewed officials at USMS PSD, the OIMS, select USMS districts, and local
jails. In each of the districts reviewed, we selected 25 inmates listed as
currently in USMS custody in order to determine whether TB testing
procedures were in compliance with USMS policy. We examined USMS
district prisoner files for evidence of documentation of TB screening, testing
and status. We also reviewed printouts from the PTS for information on TB
test date and results, and current or past TB diagnosis and treatment.

       We found documentation on prisoners’ TB status almost non-existent.
The USM Form 553, used to document TB clearance, was either entirely
missing from case files, if there were case files, or the form did not contain
TB results and thus was incomplete. In the D.C. District Court, for example,
the auditors could not locate the Form USM 553 in the prisoner files. District
officials stated that the district office did not retain a copy in the prisoner
files. We then requested that the local jail fax the original Form 553 to the
district office, which they did. Upon reviewing the documents, however, we
noted that all of the forms were signed on the same day that they were
faxed, which suggests that the forms were not accurate.

      Documentation of TB results in the PTS was also sparse to non-
existent. Only two of the districts reviewed were utilizing the PTS, and they
were doing so only partially. One of those districts had entered only 9 of the


       29
          The USM Form 553 contains an original and three copies and lists the following
information: 1) TB Clearance (Yes/No), 2) PPD Completion date 3) Results of PPD, 4)
Health Authority Clearance (Yes/No), Signature of Official and date signed.



                                          -   36 -
25 inmates selected, and the other had entered only one prisoner out of the
25 selected.

Timeliness of TB Testing

       USMS TB policy requires that prisoners be tested as soon as possible
after intake at the local jail or detention facility, unless there is medical
documentation stating that the prisoner has already been tested and cleared
for TB.3 0 Our audit testing determined that prisoners were not timely tested
for TB -- within the 14-day standard established by the ACA -- in 50 percent
of the districts reviewed. Depending on the district, prisoners remained
untested an average of three to seven weeks after initial incarceration.




                      Number of Districts with TB Testing
                        at Jails and Detention Facilities
                                                     50%

                  Districts
                  Timely=4
                  Districts Not
                  Timely=7
                  Unknown If
                  Tested=3

                                                                 21%
                                          29%
              Source: Prisoner records



      Untimely testing increases the risk of exposing other prisoners, USMS
employees, and other parties involved in the judicial process to TB. In
addition, delays in TB testing may impede the judicial process because
prisoners cannot be transported without a TB clearance.

Tracking Active TB Cases

      We asked each of the districts reviewed to provide us a list of
prisoners currently in USMS custody who had been diagnosed with active TB.


       30
           ACA standards recommend prisoner health appraisals, to include testing for TB,
within the first 14 days of incarceration.


                                          -   37 -
Of the 14 districts, 6 districts could not provide a list of prisoners with active
TB, 3 districts were able to provide a list, and 5 of the districts stated that
they had not processed any prisoners with active TB during the review
period. However, we later determined that one of the districts claiming not
to have processed any prisoners with active TB had paid for treatment of
active TB for a USMS prisoner in FY 2002. This lack of awareness was not
totally unexpected, given the scarcity of TB-related information in the
prisoner files and the PTS. It is, nevertheless, a cause for concern given
that prisoners who are suspected of or have been diagnosed with active TB
are not to be produced for court or transported (other than to an appropriate
local medical facility) by USMS personnel until the prisoner has received the
appropriate medical care and is medically cleared by a health professional.

      Districts often rely on the local jails or detention facilities to test
detainees for TB and keep track of those with active TB. The problem with
such reliance is that not all local jails test their prisoners for TB. In 1998 the
OIMS conducted a survey of TB testing in jails housing USMS prisoners. At
the time about 60 percent of USMS prisoners were housed in local jails
under IGAs between the USMS and local jails. The survey revealed that only
74 percent of the local jails tested federal prisoners for TB, most upon
intake. Of the remainder, 17 percent did not test for TB, and 9 percent
deemed TB testing as optional, provided upon request by the prisoner.

       It is the USMS, not local jail facilities, that is responsible for monitoring
the health status of federal prisoners. Failure to track active TB cases could
endanger the courts, law enforcement officials and the public. In the
Western District of Texas, for example, a prisoner was released on bond
prior to his TB test results being received. Subsequent receipt of the
prisoner’s chest x-ray results confirmed that he had active TB. In another
incident a deputy marshal was unknowingly exposed to TB when he escorted
a prisoner that, unbeknownst to him, had been diagnosed with active TB.
According to the deputy, he was not advised of the prisoner’s condition until
after he had transported the prisoner. The deputy later tested positive for
TB and had to be treated.

Hepatitis and HIV/AIDS

      Currently the USMS has no formal policies similar to that of its TB
policy concerning the tracking and monitoring of HIV/AIDS and hepatitis.
This was a cause for concern with regard to HIV/AIDS in particular because
its management is inseparable from that of other communicable diseases,
such as TB, given the increased opportunity for infection among prisoners
with compromised immune systems.



                                       -   38 -
       While no formal USMS policies currently exist at the national level we
performed audit steps to determine to what extent district offices were
tracking and monitoring cases of hepatitis and HIV/AIDS on their own. We
found that little was being done at district offices to fill the policy vacuum at
the national level regarding hepatitis and HIV/AIDS. When asked, district
officials stated that there were no local policies or that they were not aware
of them if there were. While some steps were being taken, there was little
consistency from district to district in the handling of hepatitis and HIV/AIDS
cases.

      With regard to screening for HIV/AIDS and hepatitis we noted the
following:

•   District offices do not monitor the screening of USMS prisoners by jails for
    HIV/AIDS and hepatitis.

•   Four districts stated that they rely on prisoners to volunteer their HIV
    status.

•   One district stated that it screened new arrests but it did not monitor
    screening by the jails.

•   One district visually screens if the prisoner was ill or stated so.

•   One district stated it transfers prisoners who are HIV positive to a CCA or
    BOP facility if the time in USMS custody is expected to be lengthy.

•   Six districts documented HIV/AIDS status on USMS forms and annotated
    the forms with terms such as “transport with caution,” “body fluid watch,”
    and “universal health precaution.” Four districts entered the infected
    prisoners’ health status into the PTS.

       With regard to treatment provided at local jails we noted the following:

•   Four of the districts stated that they were reviewing and authorizing
    requests for treatment of or medications for HIV/AIDS and hepatitis by
    jails. One of them also discussed contacting the OIMS for assistance, and
    one mentioned that USMS headquarters is contacted for approval.
    Another said it relies completely on the jails.

•   Four districts stated that they were not aware of current or past diagnosis
    and treatment of USMS prisoners for HIV/AIDS and hepatitis provided by
    jails.



                                       -   39 -
•    Seven districts were documenting the health status for HIV/AIDS and
     hepatitis for prisoners on USMS forms, six of which entered information
     into the PTS.

      USMS officials at our exit conference explained that tracking and
monitoring of HIV/AIDS was problematic due to privacy issues, which would
preclude tracking and monitoring. However, we found evidence of current
mandatory HIV testing at both the state and federal level. According to the
Bureau of Justice Statistics (BJS) Bulletin, HIV in Prisons, 2000 (October
2002), the BOP tests all federal inmates at the time of release. Further, the
BOP tests a random sample of inmates for HIV in alternate years. The BJS
Bulletin also listed 19 state prison jurisdictions, including Colorado, Michigan
and New Hampshire that test all incoming inmates for HIV.

Conclusion

      The USMS needs to take a more active role in monitoring and tracking
TB and other infectious diseases, such as HIV/AIDS and hepatitis. Too often
the USMS districts place undue reliance on local jails to provide them
information on federal prisoners in USMS custody. Failure to effectively
track and monitor these communicable diseases endangers not only the
health of those involved in the judicial process, but that of the general public
as we ll.

Recommendations

       We recommend the USMS:

7.     Ensure that USMS deputy marshals perform initial TB screening of the
       USMS prisoners that are housed in USMS district holding cells.

8.     Ensure that all cases of active TB are reported directly to the OIMS.

9.     Require that prisoners’ TB test dates and results be documented on
       the Form USM 553 Medical Summary of Federal Prisoner/Alien In
       Transit and entered into the PTS, in accordance with USMS TB policy.
       Copies of the USM 553, either paper or electronic, should be
       maintained at the district offices.

10.    Develop and implement a system to track and monitor active TB
       cases.

11.    Develop and implement a policy for tracking and monitoring of
       HIV/AIDS and hepatitis cases.


                                     -   40 -
      5.     SECURE TRANSPORT OF FEDERAL PRISONERS TO AND
             FROM HEALTH CARE FACILITIES JEOPARDIZED BY ILL-
             MANAGED CONTRACT GUARD OPERATIONS

             Management of contract guard operations relative to prisoner
             medical care was characterized by inadequate training, breaches
             in policy, and lapses in internal controls. We noted problems in
             nearly all areas of contract guard activity, ranging from lack of
             documentation to overpayments. More importantly, the ill-
             managed contract guard operations have created an
             environment in which the USMS cannot effectively control the
             risks inherent to transporting federal prisoners to and from off-
             site health care facilities.

      A critical factor in providing outside medical treatment to federal
prisoners is the secure transport to and from health care facilities and
guarding of prisoners during the period of treatment. Typically, the USMS
does not utilize deputy marshals for such activity, but instead employs
contract guards.3 1 Of the $43 million in prisoner medical care expenditures
in FY 2002, $7.4 million or 17 percent went to providing security for
prisoners receiving outside medical care. Security in this case refers to the
hiring of contract guards for the transportation and guarding of prisoners
requiring external medical treatment. Contract guards for hospital transport
were used in 12 of the 14 districts we reviewed.

        There are inherent risks associated with the transportation and
guarding of federal prisoners while in public, the most serious of which is
death or injury to an innocent bystander. The most effective way to
minimize those risks is to eliminate or reduce the need for outside medical
services. In New York, for example, the USMS has benefited from an
interagency agreement with Veterans Administration (VA) hospitals in
Manhattan and Brooklyn in which VA doctors make site visits to BOP
facilities, thus reducing the need for outside medical services. Such
arrangements notwithstanding, the need for outside medical care exists, and
to address the associated risks the USMS has established policies and
procedures related to contract guards that govern: 1) the transporting of

      31
          The USMS procures contract guards through one of two means: 1) contract guard
companies, or 2) personal service contracts. In contrast to formal guard company
contracts, which involve competitive bidding and generally run for five years, personal
service contracts, as the name denotes, are contracts with individuals and bear more of a
resemblance to a temporary worker than a contract employee. For the mo st part, these
involve off-duty or former law enforcement officers whose duties include guarding
prisoners in USMS holding cells and transporting prisoners in need of medical treatment to
and from hospital facilities.


                                         -   41 -
prisoners, 2) personnel qualifications, 3) work experience, 4) training, and
5) fitness for duty. For these specific policies and procedures, see
Appendix V.

      Although contractors provide the hospital guards, the district is
responsible for: 1) determining the placement of prisoners under the
supervision of contracted guards, 2) determining the number of contracted
guards required for a detail, 3) ensuring that the qualification of the
contracted guards meet established standards, and that 4) ensuring that
contracted guards are properly trained to properly perform their assigned
duties and responsibilities.

      Our review of USMS district compliance with the established controls
indicated that many districts we re not in compliance with USMS policies and
procedures regarding prisoner transportation and hospital guard duty. Often
the district offices were not certain if company contract guards met USMS
standards. Some district offices did not retain documentation to verify
whether contract guards met all of the qualifications and training
requirements stated in the USMS policy and procedures manual.

      In some instances, the lack of documentation was due to deficiencies
in the contracts themselves. We noted that some contracting documents did
not contain a clause requiring the contractor to provide the district office
with documentation that all USMS requirements are met, and in some
instances the contract did not state that personnel qualifications had to be
met at all. A discussion of specific areas with regard to both personal
service contracts and guard company contracts follows.

Contract Personnel Records

      Personal Service Contracts

      USMS policies and procedures require that district offices obtain the
following background information for individuals employed to work as
hospital guards: 1) valid driver’s license, 2) background check,
3) fingerprints, and 4) firearms qualification.

      USMS policy requires that these documents be maintained on file to
ensure that hospital guards: 1) safely perform their duties, 2) have no
criminal background, and 3) can legally transport prisoners. However, our
review of personal service contract files revealed that USMS district offices
are not properly maintaining personnel information, as illustrated in the
table below:



                                     -   42 -
             DOCUMENTATION OF PERSONAL CONTRACT GUARD
                    QUALIFICATIONS IN DISTRICT FILES
                        Firearms Background Driver’s
           District     Qualified   Check    License Fingerprints
      Arizona               None        None     60%        None
      DC District Court            None                100%      20%              None
      Kansas                      100%                 100%     100%             100%
      Eastern New York             None                None      20%              None
      Western New York            100%                  N/A     100%             100%
      South Carolina                40%                10%       10%              None
      Southern Texas              100%                 None     100%              None
      Western Texas               100%                 None      80%              None

       Source: District contract personnel records



      Officials at the Eastern District of New York acknowledged that their
personal contract guard files were incomplete, and that they were in the
process of improving their personnel records. Officials from the Southern
and Western Districts of Texas and the District of Arizona all stated that it
was their understanding that personnel information was not required for
sworn officers and that the guards’ primary law enforcement employer had
the information on file.

      USMS policy does allow for a firearms qualification exemption if the
contract guard is a sworn law enforcement officer. However, we found that
some guards were retired officers and that many of the guards who were
sworn officers had not submitted a USM Form 234 (affidavit of affirmation),
as required under USMS policy.3 2

       Guard Company Contracts

      As with personal service contracts, the USMS requires that contract
guards hired through guard company contracts meet the minimum
standards related to experience, fitness, weapons qualifications, physical
fitness, criminal background, and training. Of the seven districts reviewed

       32
           USMS policy states that active sworn law enforcement officers are exempt from
USMS firearms qualifications if they certify in the affirmation of work qualifications for
contract guards that they are currently qualified and authorized to carry their duty firearm.
In addition, they must have been qualified by their agency within the past 12 months and
must re-qualify at least annually thereafter.


                                            -   43 -
that utilized company hospital guards, our review of personnel files revealed
that:

    •   Contract guard personnel files at three of the districts did not contain
        fingerprints.

    •   Contract guard personnel records at two of the districts did not
        contain information related to the guards’ previous experience or
        qualifications.

    •   Two districts did not have personnel records on any of the individuals
        performing hospital guard duties.

    •   One district was obtaining guard services without a contract.

      The USMS requires that the districts document the qualifications and
background of all individuals contracted to guard and transport federal
prisoners. These controls have been established to ensure that guard
personnel are capable of properly performing their duties.

       By not complying with these policies the districts increase the risk of
hiring an individual who lacks the proper qualifications and experience or has
a criminal background, which in turn increases the risk that incidents
resulting in injury or death may occur.

Training

       USMS policy requires that personal service guards receive specific
training within 30 days of providing service in addition to annual refresher
training thereafter. The policy permits that past or current agency training
may be used in lieu of USMS training but must be annotated on the
Affirmation of Qualifications statement in the guard's contract file.33

      Contract hospital guards are required to: 1) view a video on TB,
2) become familiar with USMS policies and procedures, 3) know how to
apply and remove restraints and conduct searches, 4) review and agree to
comply with the USMS use of force policy and must certify to their
knowledge of the policy, and 5) review USMS Policy Directive 99-18(1)
regarding professional standards of conduct and certify to their knowledge of
the policy.


        33
         Signed document listing the guard’s qualifications including experience, training,
background and fitness for duty.



                                           -   44 -
      We reviewed the training provided to contract hospital guards at 12 of
14 the district offices.3 4 We noted that 8 of the 12 districts using contract
guards kept no records on hospital guard training. The following table
summarizes the results of our review.



                                 CONTRACT GUARD TRAINING
                                      Company Contract Personal Contract
                      District              Guards          Guards
                                           Training        Training
            Arizona                                None3 5                   None
            Central California                      Yes3 6                  N/A3 7
            DC District Court                       N/A                      None
            Northern Illinois                       None                      N/A
            Kansas                                  N/A                      None
            Eastern New York                        N/A                      None
            Western New York                        N/A                       Yes
            Eastern Pennsylvania                    None                      N/A
            South Carolina                          None                     None
            Southern Texas                          N/A                    Partial3 8
            Western Texas                           N/A                     None
            Southern California                     Yes                      N/A
            Source: District contract personnel records


     The District of South Carolina was somewhat unusual in that guard
personnel files contained letters signed by the U.S. Marshal stating that the

       34
              Two districts did not utilize contract guards (personal or company).

       35
              “None” indicates the auditors found no documentation in the files related to guard
training.

       36
           “Yes” indicates that the district had documentation indicating that the guards had
received the required training.

       37
              “N/A” indicates the district did not use that type of contract guard.

       38
            “Partial” indicates the district had some documentation indicating guard training
but the files were incomplete.


                                               -   45 -
hospital contract guards had met USMS experience qualifications and did not
require additional training. Based on our review and interviews with district
officials, we concluded that despite USMS policy requiring training for
hospital guards, the U.S. Marshal made a decision to not provide training for
their personal contract guards. We also concluded that this decision was
based on the Marshal’s determination that if a personal contract guard had
met the experience requirements, then the USMS training requirements
were not applicable. While this may have been done in good faith and based
on confidence in the contract personnel, a decision to circumvent internal
controls increases the risk that an incident will occur that may jeopardize
public safety.

Prisoner Escape

      We encountered such an incident in our review of the district office in
Southern California when a prisoner with active TB managed to escape from
his hospital room. The prisoner, who was hospitalized for treatment of
active TB, was placed in a non-secured section of the hospital because the
secured wing was full. The unsecured hospital room had no observation port
in the door and had windows to the outside that could be opened. Further,
because the prisoner had active TB, the contract guard di d not stay in the
room with the patient. Consequently, the contract guard failed to maintain
regular visual contact, in violation of USMS procedures. In this instance, the
prisoner was out of the guard’s sight for a long enough period to put on his
street clothes (which he should not have had), tie several bed sheets, open
the window and lower himself to the ground to make his escape. Following
his escape, the prisoner hijacked a woman driving her car. He was
eventually apprehended and later died in custody from advanced TB.

      The woman filed a lawsuit against the hospital and the USMS and the
USMS was found not to be liable. While the incident ended without serious
physical injury to the innocent bystander, the escape of a violent felon with a
highly contagious disease into the community could have had far more
serious consequences.

Alleged Prisoner Abuse

      In another incident, this one in the Northern District of Illinois, a
prisoner undergoing dialysis treatment alleged that two contract guards
engaged in misconduct, stating that while in a hospital bed watching TV he
was beaten by a guard for changing the channel. According to the prisoner,
the guard warned him “not to change the TV channel or he would kick his
ass.” The prisoner stated that he hit the nurses call button, and when she
arrived the guard told the nurse that the prisoner had been acting up.


                                    -   46 -
      On a separate occasion, the prisoner complained about another
contract guard handcuffing him in a manner that was very painful because
he was undergoing dialysis. He stated that while the jail guards had
handcuffed him in a manner that was not painful, the contract hospital
guards handcuffed him in a manner to induce severe pain. He added that
when he refused to be handcuffed in such a manner the contract guard
made disparaging remarks about the prisoner’s mother.

      District officials stated that they contacted the contractor and asked
that they suspend the two accused guards until an investigation could be
completed. Further information obtained by the audit team indicated that
the accused guards were suspended temporarily, but there was no evidence
that the USMS followed through with an investigation into the prisoner’s
complaint.

Contract Monitoring

      At the heart of the aforementioned problems is the issue of contract
monitoring. In most cases, the responsibility for monitoring contract
performance rests with the Contracting Officer’s Technical Representative
(COTR).3 9 An active and well-trained COTR is central to the effective
management of any contract operation.

       USMS policy requires that district office employees meet specific
requirements to qualify as a COTR.4 0 We interviewed the COTR at each of
the six districts with guard company contracts to evaluate their knowledge of
contractor performance requirements, such as guard training and guard
qualifications. We also asked to review annual written evaluations of the
contractors’ performance to determine if the evaluations were
comprehensive and submitted timely.

      We determined that most of the COTRs lacked a proper knowledge of
the hospital experience, billing procedures and rates, problems and
complaints, and, in general, the guard contract they were managing. We

       39
          Contracting officers may appoint individuals selected by the district office to act as
authorized representatives in the monitoring and administration of a contract. Such officials
are designated in the contract as the COTR.

       40
           COTRs must attend and successfully complete a 16-hour basic COTR course and
obtain a minimum of 3 hours training specifically in procurement ethics. Once the COTR
signs a certification for procurement officials required by the Procurement Integrity Act, the
contracting officer designates in writing that the COTR can act as an authorized
representative to monitor contract performance and deliveries in accordance with the
contract requirements and certify satisfactory delivery of supplies or services before
contractor invoices are paid.


                                            -   47 -
further determined that most COTRs had not submitted formal evaluations of
the contract to district management.

      While most of the COTRs had received the required training, only one
of those we interviewed indicated active involvement in monitoring of the
contract. This was not a wholly unexpected outcome, as the COTR function
in the USMS is a collateral duty, often performed by deputy marshals with a
full workload and little background experience in contracts.

      An example of the limited oversight provided at the district level was
seen in the Northern District of Illinois, which had been utilizing the Magic
Security, Inc., over a four-year period to both transfer and guard federal
prisoners receiving outside medical treatment.

      Our review of the district office determined the following regarding the
contractor:

•   We determined that the district had made overpayments in excess of
    $211,411 over a two-year period on the guard company contract. We
    reviewed several invoices from FY 2002 and determined that the rates
    listed on the invoice were consistently above the negotiated rate on the
    most current contract. 4 1

    In addition, we detected several contractor errors in the summary total of
    billing sheets listing the number of guard hours and transports provided.
    We noted that the district office did review the billings as evidenced by
    numerous corrections. However, based on the large number of
    undetected errors we determined that the district office was not
    adequately reviewing the invoices and billing sheets.

•   The guard company had used their own vehicles to transport federal
    prisoners to medical appointments. Our audit indicated that the district
    had not inspected the vehicles to ensure that they met USMS security
    specifications.

•   The district did not retain documentation demonstrating that the contract
    guard personnel met USMS standards.

•   Contract personnel were not provided the training required by USMS
    policies.


       41
             When we informed the USMS of the overpayments, district officials stated that
because the USMS had other contracts with Magic Security there would be a financial audit
of all their contracts.


                                          -   48 -
•   The contractor was in Chapter 11 bankruptcy at the time of our review,
    but had not notified the district office of its financial condition.

•   USMS guard identification badges were not being returned to the USMS
    after contractor employees separated from the contractor.

•   The district did not perform periodic formal written evaluations of the
    guard contractor. Contractor officials stated that they have never been
    reviewed by the USMS.

Conclusion

       Overall, contract guard management at the district offices was
characterized by a lack of documentation and verification stemming from an
absence of strong oversight on the part of the district COTRs. District offices
were not verifying whether guard companies were providing hospital guards
that met USMS personnel requirements. These lapses in oversight increase
the risk of hiring unqualified or incompetent guards, which could ultimately
result in incidents of escape and injury or death to an innocent bystander,
law enforcement official, or the prisoner.

Recommendation

We recommend the USMS:

12.   Ensure that guard contracts are effectively monitored by:

      a. requiring that the COTR submit comprehensive guard contractor
         evaluations every six months. These evaluations should be
         thorough and should require documentation that supports the
         determinations and findings of the COTR.

      b. requiring that the COTR submit to the contracting officer, along with
         the contractor evaluation, a list of the district’s active contract
         guards. This list should include identifying information, prior
         experience, and training.

      c. requiring that COTR evaluation elements be included in the
         personnel ratings of USMS employees assigned as COTRs.




                                    -   49 -
                                                                   APPENDIX I

           AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

      The objectives of the audit were to determine whether management
controls established by the USMS will reasonably assure that: 1) prisoners
are provided necessary health care, 2) prisoners are screened for
communicable diseases, 3) costs are necessary and reasonable, and
4) prisoners are provided secure transport to off-site facilities to receive
medical treatment.

Scope and Methodology

       The scope of the audit encompassed USMS management of prisoner
medical care from FY 2000 through FY 2003 and was conducted in
accordance with generally accepted government auditing standards. Our
primary focus was on management activities at the district office. We
conducted fieldwork at 16 USMS district offices and performed statistical
sampling of internal controls over prisoner medical care at 14 of those
district offices.

       To complete the audit, we: 1) researched and reviewed applicable
laws, policies, regulations, manuals, and memoranda; 2) interviewed
officials at the USMS and BOP; 3) conducted fieldwork at 16 district offices
located in Los Angeles, CA; San Diego, CA; San Francisco, CA; Sacramento
CA; Philadelphia, PA; Brooklyn, NY; Buffalo, NY; Tampa, FL; Topeka, KS;
Phoenix, AZ; Albuquerque, NM; Chicago, IL; Washington, DC; Columbia, SC;
Houston, TX; and San Antonio, TX, as well as USMS Headquarters in
Washington, DC; 4) selected and reviewed a statistical sample of 900
vouchers from a universe of 6,525 obtained from the USMS FMS system.
In conducting our audit, we relied on computer-processed data. We tested
the accuracy of the data by tracing it to original source documents.

      For objective 1, we interviewed USMS officials, reviewed USMS policy
and procedures, prisoner files, and documents related to: 1) prisoner
deaths, 2) litigation resulting from prisoner medical issues, 3) evaluations
and audits of health care services provided by contract jail facilities, and 4)
internal controls associated with the USMS cellblock health screening.

     For objective 2, we obtained and reviewed USMS policies and
procedures related to internal controls established to mitigate the risk of
spreading such infectious diseases as TB, HIV/AIDS and hepatitis.


                                     -   50 -
       We interviewed a judgmental sample of deputy marshals to determine
if they understood the outward signs of TB and knew what action to take if
they encountered a prisoner displaying symptoms of the disease.

      In addition, we reviewed records of prisoners in USMS custody from
October 1, 2001, through September 30, 2002, who were diagnosed with
active TB. We determined if the case was reported to the Office of
Interagency Medical Services (OIMS). We verified if the prisoner was
immediately taken to a medical facility for treatment and remained in a
medical facility until the diagnosis was confirmed and treatment completed.

      To determine whether USMS personnel adequately screened prisoners
for communicable diseases, such as TB, hepatitis, and HIV/AIDS, we
interviewed officials at USMS Prisoner Services Division (PSD), the OIMS,
select USMS districts, and local jails. We also examined USMS district
prisoner files for evidence of documentation of TB screening, testing and
status. We reviewed printouts from the Prisoner Tracking System (PTS) for
information on TB test date and results, and current or past TB diagnosis
and treatment. Further, we analyzed BOP and jail communiqués regarding
medical clearance of prisoners.

       For objective 3, we selected a statistical sample of outside medical
payment transactions for review from FY 2002 vouchers listed on the USMS’s
Financial Management System to determine whether: 1) the prisoner was
eligible for treatment, 2) the procedure was properly authorized, 3) the
medical procedure was necessary, and 4) the payment was accurately
recorded and supported by documentation.

      We interviewed district officials in order to assess the internal controls
that have been established to mitigate the risk of fraud, or the excessive
cost resulting from: 1) treatment of ineligible prisoners, 2) unnecessary
medical treatment, 3) duplicate or over-priced medical bills, 4) payment of
costs covered by the prisoner’s private medical insurance, and 5)
procurement of non-generic drugs.

      We interviewed district officials and reviewed randomly selected
medical bills to establish if outside medical services were being procured in
accordance with federal regulations.

      To complete objective 4, we randomly selected hospital guard
payment transactions for review from FY 2002 vouchers listed on the USMS’s
Financial Management System and determined if the payments were
properly authorized, accurate, and fully supported by documentation.


                                     -   51 -
       We judgmentally selected and reviewed the personnel files for contract
hospital guards. By reviewing these files we found if the hospital guards
utilized by the USMS met the qualification standards for job experience,
background, physical fitness, and training.

      We interviewed the COTR of the district’s hospital guard contract in
order to determine if the COTR was qualified for their position and to
determine if they were fully performing the COTR duties.




                                    -   52 -
                                                                        APPENDIX II

                SCHEDULE OF DOLLAR-RELATED FINDINGS



FUNDS TO BETTER USE:                                    AMOUNT           PAGE



Administrative Costs of Outside                     $ 1,000,000              21
Medical Services at District Offices

 TOTAL FUNDS TO BETTER USE                          $ 1,000,000




QUESTIONED COSTS:


Medicare Versus Medicaid Payments                   $ 7,000,000              17

Overpayments on Guard Contract                      $    211,411             48


 TOTAL QUESTIONED COSTS                             $7,211,411




FUNDS TO BETTER USE are defined as future funds that could be used more efficiently if
management took actions to implement and complete audit recommendations.

QUESTIONED COSTS are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                         -   53 -
                                                                 APPENDIX III

                  GLOSSARY OF TERMS AND ACRONYMS

•   Administrative Officer (AO): Civilian employee usually tasked with
    obligating medical expenses.

•   Automated External Defibrillator (AED): A fail-safe machine that can
    delivery a life-saving electric shock to a victim experiencing a cardiac
    arrest, dramatically improving his or her chance of survival.

•   Batched transactions: Many USMS district offices combine several
    medical bills into one payment transaction.

•   Cellblock: A secure area in the U.S. Marshals Service Office intended to
    house prisoners waiting for their court proceedings.

•   Common Procedural Terminology (CPT) code

•   Company Hospital Guards: Guards employed by a company that has
    contracted with the USMS.

•   Contracting Officer’s Technical Representative (COTR): A person
    designated by a Cont racting Officer to assist with seeing that a
    contractor’s total performance is in accordance with the requirements of
    the contract and to protect the best interests of the Government. The
    individual who is responsible for the technical evaluation of a contractor’s
    performance.

•   Deputy U.S. Marshal: Includes all operational employees assigned to
    either the 0082 or 1811 job series.

•   Diagnostic Related Group (DRG)

•   Elective Care: Medical care that is not medically necessary to preserve
    the life or health of the prisoner.

•   Emergency Care: Medical care immediately necessary to preserve the
    life, health, limb, sight or hearing of the prisoner.

•   Financial Management System (FMS) : USMS’s automated financial
    accounting system.




                                      -   54 -
•   Generic Medications : Prescription medications, the names of which are
    not protected by a trademark, but which are of the identical chemical
    structure to medication, which is protected by a trademark. Such
    medication is generally much less expensive than brand-name
    medication.

•   Centers for Medicare and Medicaid Services (CMS)

•   Individual Hospital Guards: Guards hired on individual contracts to the
    USMS and are not staffed to a Security or Company guard service.

•   Infectious Disease Screening: Medical care to identify infectious diseases
    such as tuberculosis, HIV, hepatitis, etc., Such care is considered
    medically necessary to protect the health and well being of prisoners,
    USMS staff, correctional staff, and the public.

•   Inside Care: Basic medical care routinely provided inside the confines of
    the jail or institution, e.g., intake screening, infectious disease control
    measures, sick call. The level of services included will vary among
    institutions, depending upon the institutions’ capabilities.

•   Intergovernmental Agreement (IGA): An IGA is a formal written
    agreement between the USMS and a local or state government for the
    housing, care and safekeeping of Federal prisoners

•   Jail Inspector: A U.S. Marshals Deputy or staff who performs an
    inspection of local jails. These jails house USMS prisoners for the district
    under an IGA.

•   Medically Appropriate Care: Medical care that is necessary to preserve
    the life or health of the prisoner.

•   Micro purchase: Acquisition of goods or services when less than $2,500.

•   Modification: Change to an IGA or contract usually related to per diem
    rates.

•   Obligation: A monetary liability of the Government.

•   Office of Interagency Medical Services (OIMS): Established in 1994, the
    OIMS’s functions include: 1) Medical case management for the districts;
    2) Oversight the U.S. Public Health Service program at USMS, 3) Medical
    standards and policy, 4) Medical cost containment, 5) BOP/USMS Medical
    consolidation program, and 6) TB Management.


                                      -   55 -
•   Outside Medical Care: Medical care provided to a prisoner outside the
    confines of the jail or institution.

•   NCIC/NLETS: National Crime Information Center/National Law
    Enforcement Telecommunication System (Automated background
    checks).

•   Piggybacking: One government agency, e.g., USMS, obtains services
    from a vendor that has a contract with another federal agency, e.g.,
    Bureau of Prisons.

•   Pre-authorization: Authorization for the provision of a particular medical
    treatment or service obtained before providing the treatment or service.
    For the USMS, preauthorization applies to USMS prisoner medical care
    provided outside the jail or institution and for which the USMS is
    financially responsible.

•   Prisoner file: The primary district file containing all pertinent prisoner
    information. At many district offices portions of this file are in an
    electronic format.

•   Prisoner Services Division (PSD): The overall responsibility for all
    prisoner services is the USMS Prisoner Services Division (PSD). The PSD
    oversees all local jail inspections and these inspections require a review of
    prisoner medical care. The Office of Interagency Medical Services (OIMS)
    is under the PSD.

•   Prisoner Tracking System (PTS): Automated data system developed to
    support the tracking and handling of prisoners in district offices and sub-
    offices.

•   Remanded to USMS custody: Court places a prisoner in custody of the
    USMS to await trial.

•   Re-pricing: Medical invoices, after being reviewed, are sent by the
    district office to a contractor who modifies the billing amount in
    accordance with established Medicare rates.

•   Statement of Work (SOW): The portion of a government contract which
    describes in precise terms the work (tasks, materials, and services) to be
    provided by the contractor.

•   Secure wing: Hospital wing with security features, e.g., barred windows.



                                       -   56 -
•   Tuberculosis (TB): TB is an infection caused by exposure to the tubercle
    bacillus organisms. TB infection can progress to disease. TB infection
    (latent) and TB disease (active) make up the two dimensions of TB.




                                    -   57 -
                                                             APPENDIX IV

    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      As required by the standards, we tested selected transactions and
records to obtain reasonable assurance about the USMS’s compliance with
laws and regulations that, if not complied with, we believe could have a
material effect on operations. Compliance with laws and regulations
applicable to prisoner medical care is the responsibility of USMS
management.

      An audit includes examining, on a test basis, evidence about laws and
regulation. The specific requirements for which we conducted tests are
contained in the Unites States Code, Title 18, §4013, §4006, and Public Law
106-113.

      We found that the USMS was not in full compliance with Section 4006,
as amended by Public Law 106-113, which authorizes the USMS to pay for
health care provided to federal prisoners at the lesser of the Medicare or
Medicaid rates for said health care services (See Finding 3).

      Except for the abovementioned issue and other issues discussed in the
Finding and Recommendations sections of this report, nothing came to our
attention that causes us to believe that USMS management was not in
compliance with the sections of the United States Code cited above.




                                   -   58 -
                                                                             APPENDIX V

                      USMS POLICIES AND PROCEDURES
                   FOR TRANSPORTING FEDERAL PRISONERS

•   Prisoners will be fully restrained when transported by the USMS. Full
    restraints consist of handcuffs, waist chains, and leg irons.

•   Visual contact with prisoners must be continually maintained

•   If a rest stop is necessary, police facilities should be used when possible.
    Rest areas along the highways should be avoided. Facilities are to be
    selected at random after departing thoroughfares.

•   Handcuff and leg iron keys will not be carried on the same key ring as
    vehicle ignition keys or other general use keys.

•   While in transit, prisoners will not be permitted to: (a) select places
    routes of travel, rest stops, or influence in any other manner the travel
    itinerary; (b) possess or expend any funds, consume tobacco products, or
    place telephone calls; (c) converse with anyone except other prisoners
    and custodial personnel; or (d) possess or consume medication, except
    that prescribed by a physician or as indicated by the custodial facility. If
    medication must be taken, a deputy4 2 will maintain custody and dispense
    the medication as needed. If administered by hypodermic syringe, a
    deputy will maintain custody of the syringe and issue it as needed. The
    prisoner will inject the medication, or it will be administered by medical
    personnel.

•   Districts will establish procedures addressing contingencies for the
    following situations that may occur during transportation, including an
    action plan for each route routinely taken by the district.

       (a)    Prisoner illness or injury
       (b)    Disruptive prisoner
       (c)    Vehicle accident or breakdown
       (d)    Prisoner escape or attempted escape
       (e)    Alternative routes to every facility

•   Deputies shall not engage in any unauthorized activities or unscheduled
    stops while transporting prisoners. However, if there is a risk of death or
    bodily injury to a prisoner, USMS personnel or a citizen, deputies may

       42
            The policy is directed at deputy marshals and contracted hospital guards.


                                            -   59 -
    stop or alter routes to render assistance in emergency situations. District
    management will be notified immediately for guidance or assistance.
    Under no circumstances will a prisoner or prisoners be left out of visual
    contact of the transporting deputies.

•   Prisoner escapes/attempted escapes will be reported immediately to
    district management and USMS Communications Center. The
    Communications Center will notify the Investigative Services Division and
    Prisoner Services Division duty officers.

•   If a prisoner is injured or becomes sick following an arrest, the prisoner
    will be transported to a medical facility or examined by a medical
    professional prior to processing. The following security, control, and
    transportation procedures will apply:

    1. Prisoners will be searched. Control over the prisoner will be
       maintained at all times. The prisoner will be restrained unless there
       are compelling medical reasons.

    2. If emergency medical technicians (local public safety EMT/EMS)
       respond to the scene, the deputies may request that the EMT/EMS
       transport the prisoner to an appropriate medical facility, if necessary.
       At least one deputy will remain with the prisoner during transportation
       by ambulance. A second deputy will follow the ambulance and be part
       of the security team while the prisoner is being treated. If an
       ambulance is not required, deputies will transport the prisoner to and
       from a medical facility, if necessary, and remain with the prisoner
       during treatment.

Medical appointments

       The time and place of medical appointments should not be known to
the prisoner. The minimum staffing required for medical appointments is
one-on-one plus one. The detention facility staff or a hospital guard service
may move a prisoner to the hospital when emergency medical conditions
exist or for routine outpatient care. The district will be notified when a move
has been made by the detention facility or guard service. Removal for
routine medical care may not be initiated without prior approval of the
district management. Visual contact with prisoners will be maintained at all
times.




                                      -   60 -
High-threat or high profile moves

       Districts will establish a procedure for planning and conducting high-
threat prisoner movements within the district. Any movement or treatment
that could be construed as “special” should be documented to have a record
of activity. The documentation and procedure shall include, but not be
limited to, dates and times, chain-of-command, routes to be taken,
resources to be used, alternative plans/routes, and the reasons for special
measures.

Incident reports

      Significant incidents pertaining to a prisoner in the custody of the
USMS will be immediately reported to the district management. This would
include: escape, escape attempts, the use of force against prisoners, vehicle
accidents, hijacking or attempted hijacking of any vehicle used for prisoner
movement, and threats and actual attacks upon prisoners or escorting
personnel by external sources.




                                    -   61 -
                                                                 APPENDIX VI

                     USMS CONTRACT GUARD POLICY

       The contract guard is providing services as an independent contractor,
and no master/servant, employer/employee, or agency relationship is
created by the contract, individuals engaged as contract guards are not
entitled to pension benefits, health insurance benefits, or other federal
employee benefits or services.

Scope of duties

•   Guarding and transporting federal prisoners to and from medical
    appointments

•   A USM-7, Bi-weekly Time Report is to be used to record all personal
    service guard hours.

•   Contract guards cannot be scheduled for more than 16 USMS duty hours
    per day.

•   Overtime compensation will be paid after 40 hours have been worked per
    workweek.

Personnel requirement and work experience

      All applicants must ful fill the following requirements:

      a. Be a United States citizen,

      b. Be at least 21 years of age,

      c. Speak, read and write the English language,

      d. Possess a valid driver’s license,

      e. Demonstrate a proficiency in firearms that meets USMS standards if
         the assignment requires the use of an armed contract guard,

      f. Be physically able to perform the full range of contract guard duties
         as described in the Statement of Work (SOW) without limitation.




                                       -   62 -
       g. Have no medical problems, e.g., amputations, deformities,
          disabilities, etc., that would restrict strenuous exertion or prevent
          satisfactory performance,

       h. Have no history of medical problems, e.g., high blood pressure,
          heart or respiratory disease, etc., that would restrict strenuous
          exertion; and

       i. Have no other health-related problems such as alcohol dependency,
          controlled substance abuse, illegal drug use, mental illness, or
          psychological disorders.

      Categories are used to separate contract guard applicants into groups
for the purpose of contracting procedures and processing. These categories
do not represent any hierarchy of qualifications.

Category 1:    Actively employed sworn state or local enforcement officers.

Category 2:    Reserve sworn state or local law enforcement officers with a
               minimum of 1-year full-time law enforcement
               employment/experience.

Category 3:    Former/retired sworn federal, state, or local law enforcement
               officers with a minimum of 1-year full-time law enforcement
               experience who are separated no longer than 5 years from law
               enforcement employment.

Category 4:    Former/retired military police with full-time experience in the
               performance of guard duties over prisoners on a regular basis
               who are separated no longer than 5 years from law
               enforcement.

Category 5:    Private security/correctional officers. Employment as a private
               security guard does not qualify applicants unless they have at
               least 3 years of full-time guard duties supervising prisoners on
               a regular basis. Applicants must also have received an
               accredited law enforcement course of training. Academic or
               technical training may not be substituted for experience.

Training

•   The districts and JPATS are responsible for ensuring that the contract
    guard receives the following training, if applicable, within 30 days of



                                      -   63 -
    providing service. All the following training is required. However, past or
    current agency training may be used in lieu of USMS training.

•   View the video entitled Invisible Enemies: Blood borne/Airborne
    Pathogens.

•   Review and become familiar with USMS policies and procedures regarding
    cellblock operations. JPATS operations, in-district prisoner movement,
    and the Prisoner Tracking System.

•   Receive training from district or JPATS personnel on the proper
    application and removal of all USMS restraints. Contract guards must
    demonstrate their proficiency to the satisfaction of USMS district and
    JPATS management.

•   Receive training from district or JPATS personnel on the proper
    procedures and policies for conducting all USMS searches of a person,
    vehicle and other articles. Contract guards must demonstrate proficiency
    to the satisfaction USMS district and JPATS management.

•   Contract guards must receive, review, and agree to comply with the
    current USMS use of force policy, and must certify to their knowledge of
    the policy

Firearms qualification:

       Categories 1 and 2 contract guards are exempt from USMS firearms
qualifications if they certify in the Affirmation of Work Qualifications for
contract guards that they are currently qualified and authorized to carry
their duty firearm. Otherwise, the USMS is required to qualify Categories 1
and 2 contract guards in accordance with USMS firearms policy.

      Categories 1 and 2 contract guards must have been qualified by their
agency within the past 12 months and must re-qualify at least annually,
thereafter. Othe rwise, the USMS is required to qualify the contract guards in
accordance with USMS firearms policy.

      Categories 3, 4, and 5 contract guards are required to qualify in
accordance with USMS firearms policy.




                                     -   64 -
                                                                APPENDIX VII

                   USMS POLICIES AND PROCEDURES
                   FOR OUTSIDE MEDICAL SERVICES

1.   District office is notified by the jail of need for outside medical care, at
     which point they determine whether they will authorize the treatment.
     If necessary, the district office should consult with the OIMS in making
     that determination.

2.   District office prepares an authorization document and assigns a
     voucher number. The use of the USM-157 (requisition of goods and
     services) is not required for credit card buys or payments. However,
     in lieu of the USM-157 district offices are required to use some type of
     obligation form, i.e., Pre-Approval Form or Prisoner Medical Attention
     Notice, and maintain a written log or (PTS) computer file of all medical
     services. The log should contain a record of the log number, name,
     prisoner number, medical provider, date of service, services rendered,
     estimated cost, actual cost.

3.   The prisoner is transported to the outside medical provider.

4.   The outside medical provider, if possible, notifies the district office of
     what procedures will be performed and the estimated cost.

5.   Upon determining the estimated cost of the medical care the district
     office must enter the obligated amount to the correct object code 1020
     and sub-object code (2515 – hospital or 1154 - physician) for the
     assigned voucher number into the FMS.

6.   District office receives and reviews the provider’s medical invoice and
     billing statement, then verifies that the prisoner was in USMS custody
     during the service period.

7.   District office forwards the invoice and billing statement to the
     contractor for re-pricing.

8.   The contractor reviews, re-prices and processes the medical claim. If
     all documents are complete, the contractor attaches a re-pricing
     document listing the amount to be paid by the district to the invoice
     and billing sheet. These documents are returned to the district office
     for further processing and filing.




                                     -   65 -
9.    The district office pays the medical provider the amount listed on the
      re-pricing document (Treasury check or credit card).

10.   The district office enters the re-priced expense in the FMS and adjusts
      the obligated amount.




                                    -   66 -
                                                               APPENDIX VIII

    USMS POLICIES AND PROCEDURES FOR CELLBLOCK OPERATIONS

     The USMS has policies and procedures that cover medical situations
encountered in the cellblock. These policies require that:

•   If a prisoner in the cellblock needs emergency medical assistance, the
    local medical emergency service (EMS) will be immediately contacted.
    Each deputy will ensure that any prisoner with a medical emergency will
    be provided immediate medical assistance. Any prisoner who exhibits
    signs of illness or injury will be offered medical treatment.

•   At least one sign will be posted in each cellblock advising prisoners how
    to request emergency medical assistance. The signs will be written in
    English and any other language prevalent in the geographic area. The
    signs should be posted in an area that the prisoners occupy.

•   If a prisoner refuses transportation and/or medical assistance after
    complaining of illness or injury, the prisoner will be required to sign a
    USM-210 acknowledging a desire not to receive medical assistance.

•   Deputy marshals will not diagnose ailments. However, the supervisory
    deputy marshal (SDUSM) will be informed when a deputy suspects a
    prisoner is exhibiting symptoms of TB.

•   A first aid kit will be available in each cellblock and replenished as
    necessary. The SDUSM will inspect the first aid kit weekly to ensure it is
    adequately supplied and note the inspection in the cellblock activity log.

•   Prescribed medications, except for nitroglycerin, found in the possession
    of a prisoner will be taken away while the prisoner is in the cellblock. If a
    medical professional confirms the prisoner requires medication while
    being housed at the cellblock, the prescribed medication will be issued by
    and taken in the presence of a deputy. Any remaining medication will be
    returned to the detention facility where the prisoner is housed in
    accordance with the facility’s policy and procedure. Over-the-counter
    medications will not be provided to prisoners while housed in the
    cellblock.




                                      -   67 -
                                                               APPENDIX IX

           RE-PRICING CONTRACT WITH HEALTHNET, INC.

      The re-pricing contract establishes a centralized system to re-price
medical claims incurred by the U.S. Marshals Service. The contractor re-
prices all USMS medical claims according to Medicare rates and its preferred
pricing schedules to determine the lowest cost to the USMS.

     Effective November 29, 1999, the agency was granted legislative
authority (PL 106-113, amended Title 18 U.S.C. §4006), to authorize the
USMS to pay prisoner medical claims not to exceed the lesser of the
Medicare or Medicaid rate.

Contractor Services

      The contractor receives medical claims from the district offices and
reviews them to determine if they are valid. Invalid claims are those claims
that are: incomplete, duplicates, improperly submitted, illegible, or missing
mandatory information.

      The contractor then correctly re-prices all valid medical claims. These
claims are re-priced in accordance with the Medicare Correct Coding and
Payment Initiative Rules and Procedures (Public Law 101-239). The
contractor provides and operates an automated processing system for re-
pricing claims submitted by USMS district offices. The contractor also
determines if their preferred pricing rates should be applied to generate
additional savings for the USMS.

      All processed claims are then returned to the sending district along
with an explanation of benefits (EOB) for each claim and a district batch
summary sheet. The districts then pay the medical care provider the re-
priced amount. The contractor will also maintain automated records in a
database to track savings and related USMS medical program data. The
contractor also provides the districts and the OIMS with various reports in
manual and electronic format in accordance with the contract.

      If a sending district later finds that a processed claim should not be
paid then it must also inform the OIMS and the contractor in writing of such
changes so that the USMS claims database is accurate with regard to
savings achieved.




                                    -   68 -
Contractor Reports

     The contractor generates and sends a monthly transaction report to
each district that lists all claims received and processed for that district.

Re-pricing Contractor Automated Reports

      The contractor shall furnish the USMS with required statistical
information and reports. Each report will display the report period, the fiscal
year, and be broken out by district on a separate sheet, and with a national
summary page. Standard reports to be provided to the USMS include:

(1) District batch summary report – Report shall display the district batch
    number, district name and number, date received, the prisoner’s names,
    claim number, provider, and date of service. Valid and invalid (both
    incomplete and duplicate) claims shall be listed in separate sections of
    the report so that the sending district can follow up promptly on
    incomplete claims for resubmission.

(2) Explanation of benefits for each claim.

(3) Monthly prisoner transaction report (sorted and displayed by prisoner)
    Report will display the prisoner’s names sorted first in alphabetical order
    and then sorted alphabetically by medical care provider, report columns
    will show prisoner name, prisoner number, provider, claim number,
    district batch number, date received to district, amount billed, Medicare
    amount, USMS allowed amount, amount saved, and percentage saved.
    Sub-totals of activity by prisoner and for each district will be displayed as
    well as a national summary sheet provided. This report will include only
    valid claims processed for the month.

(4) Report will display the provider’s names sorted.

(5) Monthly report of invalid claims will contain two sections (one of
    incomplete claims and the second of duplicate claims submitted. Section
    1 (incomplete claims) will display prisoner name and number, provider,
    claim number assigned, amount billed, description of missing
    information, date of service, date received by contractor and the district
    transmittal sheet number. Section 2 (duplicate claims submitted) shall
    be sorted first by district and then alphabetically by prisoner name.
    Report columns will display the prisoner name, prisoner number, original
    claim number, each of the dates a duplicate was received by contractor,
    date returned to district, provider, date of service and amount billed, the
    district transaction batch number.


                                     -   69 -
(6) Monthly hospitalization report (sorted and displayed first by the hospital
    and then by the prisoner), hospital, prisoner, total number of hospital
    days, DRG, amount billed, USMS allowed amount, amount saved,
    percentage saved. The reports will be broken out by district with a
    summary sheet with national totals.

(7) Year to date reports.

(8) Special reports.

(9) Monthly invoice – Each month the contractor shall generate a master
    invoice for the OIMS broken out by district to reflect the number of
    patients, valid claims processed, invalid claims handled, amount billed,
    amount allowed, amount saved, and percentage saved.

      The contractor shall also send a copy of the monthly transaction
report, which reflects district activity for the month to each district. The
monthly transaction report shall contain a certification block to be signed
and dated by the district. The OIMS will require that each district promptly
return a certified copy of the monthly transaction report summary to support
payment to the contractor each month.

        All inpatient hospital claims are independently priced and verified by
the contractor at the correct DRG by using the Centers for Medicare and
Medicaid Service’s (CMS) approved pricing program to calculate the Medicare
allowable cost. The contractor also applies any new Medicare pricing
initiatives as soon as CMS mandates their implementation.

     Once the proper DRG has been ascertained, the contractor uses a CMS
approved Prospective Payment System to calculate 100 percent of the
Medicare allowable cost.

      The contractor shall review and date/time stamp all district batches of
medical claims/transmittal sheets. The contractor shall review the batches
to identify valid and invalid claims and enter all claims received and also
have an automated mechanism in place to track and report on any
duplicates received from the districts.

       Valid claims are those submitted on a district transmittal sheet, on the
proper CMS form, and contain at a minimum all the required information. It
is the responsibility of the sending district to verify USMS prisoner custody
and to ensure that all claims submitted for processing are complete and are
not duplicates.


                                     -   70 -
       The contractor shall process and send back to the district for payment,
all valid claims within five calendar days of receipt. An explanation of
benefits (EOB) shall be completed for each valid claim processed.

       Invalid claims are claims not submitted on the proper form or missing
information considered mandatory. Duplicate claims will also be considered
invalid. Information on invalid claims shall be reported back to the sending
district in the district batch summary. All duplicate claims shall be stamped
“duplicate” and returned to the district of origin with the district batch in
which it was received.




                                    -   71 -
                                                                             APPENDIX X

             PROPOSED NATIONAL MANAGED CARE CONTRACT

      The purpose of the proposed contract is to: 1) establish a nationwide
integrated health care delivery system, including Preferred Provider
Networks (PPN);4 3 and, 2) process and pay medical claims consistent with
the Medicare and/or Medicaid payment standards required by 18 U.S.C.
§4006 as amended. A managed health care system would include
negotiated contracts with medical facilities and providers, claims processing
and payment, utilization review and quality management.

Managed Care Network

      The contractor would be required to establish a managed care network
with community physicians, hospitals, and other ancillary services. These
services provided to USMS prisoners would include dialysis, pharmacy
discounts, optometry, ambulance, dental, skilled nursing facilities, and
outpatient rehabilitation.

      Also the contract would ensure that emergency services are available
within each network site 24 hours a day, 7 days a week. Those services
would be available at the hospitals or emergency care facilities that support
the USMS’s major use detention facilities.4 4

      The contractor would be required to incorporate USMS Prisoner Health
Care Standards, USMS administrative procedures, financial terms and rates,
hospital affiliations, and USMS security requirements into all PPN provider
agreements.

      In some cases the PPN provider may choose to refuse to accept the
provisions of Public Law 106-113 (Medicare or Medicaid). If the contractor
determines that the particular provider specialty is essential the contractor
should be required to have the provider agree to accepting rates approved
by the USMS.




       43
           Hospitals, clinics and doctors who have agreements with the nationwide health
care delivery contractor to service USMS prisoners.

       44
           Major use facilities require an average in- mate population of four or more
prisoners in the custody of a USMS district office.


                                            -   72 -
      A national health care contract will also enable the USMS to obtain
preferred pricing4 5 which will result in additional savings over and above the
USMS allowed amount (Medicare or Medicaid).

      Once the USMS allowed amount has been determined for each claim,
the contractor will then review each claim to identify any additional savings
that could be generated through preferred pricing. For example, a medical
procedure is billed at $10,000, but the Medicare rate for this claim is $8,500.
However, due to preferred pricing, the cont ractor is able to reduce the
amount to be paid by the USMS to $5,000.

      In that case, the preferred pricing amount ($5,000), not the billed
amount or the Medicare rate, is determined to be the lesser amount and the
revised USMS allowed amount. In the ins tance cited savings for the USMS
above the Medicare amount would be $2,500, less a percentage paid to the
contractor for the cost savings provided.

     The OIMS believes that the national health care contract would reduce
USMS prisoner medical expenses by obtaining preferred pricing rates below
Medicare or Medicaid, pharmacy discounts and other reduced rates.

Centralized Medical Claims

      The contractor would be required to establish an automated
centralized medical claims system to process and re-price valid claims for
medical care and supporting medical services provided to USMS prisoners in
accordance with USMS allowed amounts.

      The following is a listing of tasks and responsibilities that should be
shared by the contractor, district office and the Office of Interagency Medical
Services (OIMS) required to authorize, pay and manage prisoner outside
medical claims.

•   Prior authorization involves the assessment of appropriateness of a
    proposed service. The basic elements of prior authorization include:
    eligibility verification, benefit interpretation, and medical necessity review
    for both inpatient and outpatient services.

•   The contractor shall provide toll-free phone support during regularly
    scheduled USMS working days to provide a means for districts and



       45
           Preferred pricing is a contract rate agreed by the preferred provider to be charged
to patients covered by the USMS health care contractor.


                                           -   73 -
    detention facilities to request and receive authorization for medical
    treatment for USMS prisoners.

•   The contractor would review for authorization all medical care with
    providers within their managed care networks and non-network providers
    with the exception of emergency services, inpatient stays and operative
    procedures, which will be reviewed by OIMS.

•   The district will be required to verify that the prisoner was in USMS
    custody during the period of medical service. In addition, the district
    office should also be responsible for forwarding medical referral to the
    appropriate decision making entity (OIMS/Contractor).

•   The contractor will identify and track medical claims that are disallowed
    according to the USMS prisoner health care standards and inform the
    OIMS, the district, and the provider.

•   The contractor will receive, control and distribute claims and
    automatically assign an internal control tracking number for each claim.

•   The contractor will match pre-authorization with the associated medical
    claim prior to payment, identifying, tracking and blocking duplicate, and
    invalid claims from being processed and tracking potential cases of fraud
    and abuse. The contractor will also track the allowed amount for medical
    services, e.g., type and number of claims re-priced at Medicare, Medicaid,
    local contract rates or Preferred Provider Network rates.

•   Contractor provides accounts payable and financial management
    reporting.

•   Contractor will track and report all cost savings generated by re-pricing
    and PPN discounts.

•   Contractor will provide program reports, special or routine, i.e., cost or
    disease trends, jail, provider, and individual patient reports. The reports
    will be requested either nationally, by USMS district, or as specified by
    OIMS.

Utilization Review Program

      The Utilization Review (UR) program is designed to foster access to
appropriate, quality and cost effective care for USMS prisoners. The review
involves the assessment, evaluation, planning and implementation of health
care services. The UR program provides a formal process that promotes


                                      -   74 -
objective, systematic monitoring and evaluation of appropriate resources
throughout the continuum of care.

      Concurrent review is an assessment of on-going medical services to
determine continued medical necessity and appropriateness of care. Case
management is a process for the management of chronic medical/behavioral
health conditions that includes unexpected catastrophic occurrences, as well
as proactive management of anticipated medical management situations.
Discharge planning is the coordination of a patient’s continued care needs
when discharged from the inpatient setting.

       The OIMS is responsible for examining the utilization of inpatient
services to assess medical necessity and appropriateness. As part of the
concurrent review function, the OIMS should monitor and track the length of
stay for all inpatient admissions. The contractor’s database and website
would provide direct automated support to OIMS to enable them to carry out
this function.




                                   -   75 -
                                                                APPENDIX XI

                     STATISTICAL SAMPLING MODEL

       The statistical sampling universe for our model was defined as
vouchers submitted during FY 2002 for United States Marshal Service
(USMS) prisoner medical services from 14 of the 94 USMS districts. The 14
districts select ed accounted for 91.3 percent of the total dollar value of
vouchers submitted. Our sample test results were projected only to the
prisoner medical service activities in the 14 districts tested.

       We used a random sampling method with stratified design to provide
effective coverage of the units and to obtain precise estimates of the
characteristics tested. Each unit was tested for multiple characteristics as
discrete variables involving nominal measures. Statistical analysis was
conducted on the test results of four variables. An explanation of the audit
test results and relevance of the tests to the audit’s objectives is provided in
the body of the audit report. We present 95 percent confidence limits on the
expected value of the proportions by using the formulae given at the end of
this appendix.

      From the universe of 6,525 vouchers, we selected as first stage
sample units a random sample of 900 vouchers (an average of 64 vouchers
per district). The random sample of 900 vouchers out of 6,525 provided a
sampling fraction of 13.8 percent. From each of the randomly selected
vouchers a random sample of up to 10 transactions (second stage sampling
units) was tested. The sample test results were projected to the universe of
transactions at the 14 USMS districts.

      The table below provides the test results and projections for the
random variables tested. Following the table are the mathematical model
notations, and formulae used to compute the estimates of expected values
and variances.




                                     -   76 -
   Test Results Projections for the Random Variables Tested



                                                                     Projection at
                                              Answer     Rate of 95 Percent Lower
             Question                       (Results of Occurrence Confidence Limit*
         (Variable Tested)                     Test)       (%)           (%)
1. Was the prisoner in USMS                     Yes           94.5
   custody during the treatment?                No             0.2              0.19
                                                  Unk          5.3                     5.2
2. Was the transaction accurately                 Yes         51.9
   recorded?                                      No           1.0                 0.99
                                                  Unk         47.1                 47.0
3. Was the transaction fully                      Yes         67.8
   supported?                                     No          27.3                 26.9
                                                  Unk          4.9                     4.5
4. Were the procedures necessary?                 Yes         69.7
                                                  No           3.3                  3.1
                                                  Unk         27.0                 26.4
*This is the most conservative projection at the 95 percent confidence level. In other
 words, the projected percentage is at least the percentage of occurrence present in
 the corresponding universe.




                                       -   77 -
  Mathematical Model Notations and Formulae used to compute the
           Estimates of Expected Values and Variances

The mathematical model notations, and formulae used to compute the estimates of
expected values, and the variances are as follows.

   H                   The number of strata

   Nh                  The number of units in the stratum h, where                                      N = ∑ Nh
                                                                                                            h
   nh                  The number of units sampled from the stratum h

   yhijk               Variable k corresponding to jth selected item within the ith sampled item from
                       the hth stratum



              1           If the randomly selected 2nd stage unit j has value of
                          the type l for the random variable k
              
   yhijkl    =
              
              0          Otherwise


   ∑y       hijkl   = 1 ∀ h, i , j , k
     l


                            nh i
   yhikl               =   ∑y
                            j =1
                                    hijkl



   phikl               Sample proportion of hits of lth type of the kth variable in the ith sampled item
                       in hth stratum

                                        nh i

                                        ∑y       hijkl                   ∑p n   hikl     hi
                                                                                                                        Nh
                                                                                                            pˆ kl = ∑
                                         j =1
             pˆ hikl = yˆ hikl =                         ,   pˆ hkl    =i
                                                                                              ,   and                      pˆ hkl
                                               nhi                        ∑ni
                                                                                    hi                             h    N


To compute the variance of the estimate                                     pˆ kl      the formulae used are as follows.

                           1                                    s 2L
           V ( pˆ kl ) =
                           N2
                                   ∑ N h (N h − nh )
                                    h                           nh

   Where            s L2 is the variance of lower level terms.

   The 95 percent lower confidence limits on the estimate is given by

                                        pˆ kl ± 2 * V ( pˆ kl )



                                                                                -   78 -
           APPENDIX XII




-   79 -
-   80 -
-   81 -
-   82 -
-   83 -
-   84 -
-   85 -
-   86 -
-   87 -
-   88 -
-   89 -
-   90 -
-   91 -
-   92 -
-   93 -
-   94 -
-   95 -
-   96 -
                                                            APPENDIX XIII

                ANALYSIS AND SUMMARY OF ACTIONS
                   NECESSARY TO CLOSE REPORT

      The USMS response to the audit (Appendix XII) describes the actions
taken or planned to implement our recommendations. Our analysis of the
USMS’s response to specific recommendations is provided below. In addition
to responding to the recommendations, the USMS made a number of claims
in the program overview section of its response to which we first respond.

      We recognize the challenges that the USMS faces in confronting the
increases in prisoner population and its effect on day-to-day operations.
However, these challenges do not absolve the USMS of its responsibilities to
provide adequate prisoner medical care, especially with regard to areas
concerning public safety. Further, we question the validity of the arguments
put forth by the USMS to explain its lack of compliance with federal
regulations, as well as its own policies and procedures.

      Among the mitigating factors cited, the USMS stated “field staff have
had to become increasingly dependent on guards to perform vital local
transport functions.” We agree the use of guard services for prisoner
handling can be problematic if not managed properly, and indeed it was one
of the problems cited in our report. But the use of contract guards should
not in and of itself have any bearing on whether the USMS meets its
commitments with regard to prisoner medical care.

      In addition, the USMS stated that district personnel have no medical
expertise and that operations suffer from the lack of a centralized national
prisoner database. However, we noted that a number of districts we
reviewed had deputies on staff who are trained and certified as Emergency
Medical Technicians (EMT). Also, while we agree the USMS needs a
centralized national prisoner database, the problems we encountered in the
tracking and monitoring of TB, for example, would not have been affected by
the existence of such a database because the districts were not maintaining
the required data either manually or electronically.

      The OIG report does not minimize the strides that the USMS has made
with regard to cost savings in medical billings resulting from implementation
of the claims processing contract with Healthnet and the development of the
managed care network in the New York City area in cooperation with the
Department of Veterans Affairs. In fact, both of these initiatives are
mentioned in our report. However, while the USMS claims success in
obtaining passage of Public Law 106-113, it has yet to become compliant


                                    -   97 -
with the legislation regarding the payment of medical services at the lesser
of Medicare or Medicaid rates. In addition, while we note the USMS’s efforts
in developing prisoner health care policies and procedures, their successful
implementation has been problematic, as indicated throughout this report.
For example, USMS guidance on documenting the incidence of TB in the
districts was almost universally disregarded. Further, the USMS had failed
to implement its September 2002 draft policy on prisoner health and
emergency care in a timely manner. The policy was still in draft at the time
this report was issued to the USMS for comment in November 2003.

      In summary, the OIG recognizes the need to view program functions
within the context of an agency’s overall mission. In the case of the USMS,
we understand the challenges associated with an increasing workload placed
upon their workforce. However, the information provided in the program
overview section of the USMS response, while informative, does not mitigate
or undermine our findings, nor does it justify delays in the implementation of
corrective actions.

Recommendation Number:

1.   Resolved. In its response, the USMS stated that it would disseminate
     guidance to the field by February 27, 2004, regarding the
     authorization, recording, and tracking of outside medical procedures.
     The OIG has no problem with the USMS using different sub-object
     codes for company guards and personal service contract guards, as
     long as the districts are consistent in their approach. This was not the
     case in at least three districts, where payments for personal service
     contract guards were recorded under the sub-object used to track
     payments for guard company contract guards. We also note that
     establishment of a national managed care contract should address the
     administrative problems encountered with regard to pre-authorization
     and FAR violations. In the interim, however, the USMS needs to
     address all of the weaknesses identified in this report. In order to
     close this recommendation, please provide to the OIG copies of all
     procedural guidance disseminated to the districts in response to this
     recommendation pertaining to the authorization, recording, and
     tracking of outside medical procedures by March 12, 2004.

2.   Resolved. The USMS stated that it would re-initiate operational
     reviews of USMS district offices and is currently reviewing a proposal
     to establish an Office of Inspections. It has now been nearly four
     years since the USMS suspended “periodic” reviews of district
     operations. The USMS should develop interim action to be taken in
     the event that its proposed Office of Inspections cannot be established


                                    -   98 -
     within a reasonable timeframe. In order to close this
     recommendation, please provide to the OIG by March 12, 2004, a
     definitive timeframe for the re-establishment of operational reviews.

3.   Resolved. In its response, the USMS stated that it anticipates
     awarding a national managed health care contract in fiscal year 2004.
     In order to close this recommendation, please notify the OIG upon the
     successful conclusion of contract negotiations and provide to the OIG a
     copy of the signed contract. With regard to USMS non-compliance
     with legislation requiring payment for medical services at the lower of
     Medicaid or Medicare rates, USMS management disputed the accuracy
     of the report’s “finding” that the agency expended an estimated $7
     million more in medical funds than necessary, and suggested that the
     estimate is overstated or inflated. To the contrary, we believe that the
     estimate is conservative based on the fact that the Medicaid rates in
     the states with the largest share of medical costs were less as a
     percentage of Medicare rates than the 81 percent overall average used
     in our analysis. Medicaid rates in California and New York, for
     example, which accounted for over 30 percent of total outside medical
     costs, averaged 65 and 78 percent of Medicare rates respectively. In
     all likelihood, the formal state-by-state analysis alluded to in the
     USMS’s response would have yielded an even greater estimate of
     potential cost savings. While the OIG understands the concerns voiced
     by the USMS over enforcement of the current legislation, the USMS
     should achieve compliance with the law, particularly given the cost
     savings attainable, or obtain appropriate legislative relief.

4.   Resolved. The USMS stated that it would disseminate guidance to
     the field by February 27, 2004, regarding the use of prisoners’ private
     insurance to cover the costs of outside medical care. It also stated
     that only a small number of prisoners have private insurance. Yet, the
     instances noted in our report and by the USMS in its response indicate
     that the benefits of enforcing utilization of prisoners’ medical insurance
     outweigh the minimal administrative efforts required. In order to close
     this recommendation, please provide to the OIG copies of all
     procedural guidance disseminated to the districts in response to this
     recommendation by March 12, 2004.




                                    -   99 -
5.   Resolved. In order to close this recommendation, please provide to
     the OIG by March 12, 2004, copies of procedural guidance
     disseminated to the field regarding cellblock health care policy and
     CPR and AED training.

6.   Unresolved. Part (a) is resolved and can be closed when the USMS
     notifies the OIG that it has completed its database upgrade. Part (b)
     is resolved and can be closed when the USMS provides a copy of the
     training module pertaining to jail inspections and notifies the OIG that
     jail inspection training for all districts has been completed. In addition,
     please provide to the OIG a copy of the language in the current
     performance evaluations addressing deputy marshal performance as
     jail inspectors. Part (c) is unresolved. As pointed out by the USMS in
     its overview section, only 2.8 percent of state and local facilities are
     certified by the American Correctional Association and only 12.5
     percent are certified by the National Commission on Correctional
     Health Care. Statistics such as these illustrate the need for greater
     scrutiny of jail operations by the USMS. The quality of jail inspections
     we reviewed varied considerably from district to district, with the
     majority lacking meaningful detail. However, there are USMS districts
     that can serve as an example of how to complete well-documented jail
     inspections, such as Eastern California and the El Centro sub-office.
     The USMS needs to assess all of its jail inspection reports and require
     the same thoroughness and attention to detail from all districts that it
     currently receives from a few districts. In order to resolve part (c) of
     this recommendation, please provide the OIG by March 12, 2004, with
     plans to review district jail inspections and provide guidance on the
     minimum level of testing required to adequately complete a jail
     inspection. Part (d) is resolved and can be closed when the USMS
     provides the OIG with the results of the PSD working group. Please
     provide specific plans of action and timetables by March 12, 2004.

7.   Resolved. The USMS stated that it would disseminate guidance to
     the field regarding prisoner health care policy and airborne infectious
     disease control (e.g., TB, SARS), and require district certification of
     policy compliance by April 30, 2004. While we recognize that district
     personnel are not medical experts, we note that many individuals are
     acquiring medical knowledge through AED and CPR training. In
     addition, a number of the USMS districts we reviewed had deputies on
     staff trained and certified as Emergency Medical Technicians. Until the
     USMS implements an automated system capable of national tracking
     of infectious TB cases, the USMS must use paper or computer-based
     documentation (spreadsheet or other mechanisms) to document


                                   -   100 -
      compliance with visual screening of TB symptoms and isolation of
      suspected infectious airborne disease cases such as TB and SARS. In
      order to close this recommendation, please provide to the OIG copies
      of procedural guidance to the field regarding cellblock policy and
      procedures, a summary report of written certification of full compliance
      by districts, and a definitive timeline for modification of USMS
      automated systems by May 7, 2004.

8.    Resolved. The USMS stated that it would disseminate guidance to
      the field on prisoner health care policy and airborne infectious disease
      control by April 30, 2004. In order to close this recommendation,
      please provide to the OIG copies of procedural guidance to the field
      with regard to TB control policy and procedures, and a summary report
      of written certification of full compliance by districts by May 7, 2004.

9.    Resolved. The USMS stated that it would instruct district staff
      concerning documentation of TB test dates and results on Form USM
      553, as well as entering the test dates and results into the PTS by
      April 30, 2004. The USMS must also direct staff to maintain either a
      completed copy of the form in the prisoner case files or, in the absence
      of these files (paper or electronic), a scanned copy of the form. In
      order to close this recommendation, please provide to the OIG copies
      of all instructions provided to the districts in response to this
      recommendation concerning the documentation of TB test dates and
      results by May 7, 2004.

10.   Resolved. The USMS stated that it would continue to rely on districts
      to report active TB cases to OIMS by phone and fax until the USMS is
      able to hire an additional U.S. Public Health Service Officer position as
      an Infectious Disease Control Officer at the national level. This
      individual will track and monitor prisoner airborne infectious disease
      cases. The USMS added that it does not currently have a national
      automated prisoner database system to track and monitor prisoner
      airborne infectious disease cases. We note that the USMS’s TB policy
      requires districts to report all cases of active infectious TB to the
      OIMS. Given the severe health consequences, we believe it would not
      burden the OIMS to document and compile this information. In order
      to close this recommendation, please develop a computer-based
      system, such as a spreadsheet or other mechanism, at the OIMS to
      monitor and track active TB cases reported by phone, fax, or pager
      and provide copies to the OIG of plans describing this system by May
      7, 2004. In addition, please notify the OIG about the prospects for
      funding of the Public Health position by the same date.



                                    -   101 -
11.   Unresolved. The USMS stated it disagrees with this recommendation,
      citing reliance on detention facilities for medical screening and
      necessary prisoner medical care from attending physicians as the
      reason that it should not develop and implement a policy for tracking
      and monitoring HIV/AIDS and Hepatitis cases. As earlier stated and
      acknowledged by the USMS in its overview, only a small percentage of
      the local jails that the USMS claims to place full reliance on for medical
      screening and medical care are certified by the ACA or the NCCHC.
      Further, there is some inconsistency in the USMS’s position on this
      issue given that it currently has policies and procedures in place for
      tracking and monitoring TB, and has thus acknowledged the need to
      track and monitor the incidence of communicable diseases. The CDC
      underscores that the issue of HIV, in particular, is not readily
      separable from that of TB. The CDC further points out that individuals
      with weakened immune systems typical of HIV infection are more
      likely to develop active TB. Notably, the Eastern District of California
      has already incorporated the relationship between HIV/AIDS and TB
      into its local training curriculum. We believe that the USMS cannot
      afford to ignore the connection between TB and HIV because the CDC
      has reported outbreaks of TB in HIV-infected inmates, including one
      outbreak in South Carolina during 1999-2000 and another in California
      during 1995-1996. The Joint United Nations Program on HIV/AIDS
      stated, “Worldwide, TB is the leading cause of death among people
      infected with HIV.” The problem with the USMS relying on local jails to
      provide medical screening is that according to the NCCHC report to
      Congress, dated May 2002, no major jail systems have a mandatory
      testing policy of inmates for HIV.

      With regard to the confidentiality issues cited in the USMS response,
      the Bureau of Justice Statistics (BJS) reported that the BOP tests all
      inmates for HIV at the time of release. The BOP also tests a random
      sample of inmates for HIV on alternate years. While the USMS stated
      that the BOP said that it does not routinely inform its guards about the
      HIV status of prisoners, we do not believe that the BOP practice is a
      suitable excuse for not reviewing the health status of USMS prisoners.
      In addition to testing at the federal level, the BJS Bulletin, HIV in
      Prisons, 2000, dated October 2002, listed 19 state prison jurisdictions,
      including Colorado, Michigan, and New Hampshire, that test all
      incoming inmates. Fifteen state prison jurisdictions also test inmates
      in high-risk groups. The USMS also raised concerns regarding the
      issue of confidentiality of HIV status information. However, this is a
      legal matter decided differently by each state. The issue also is
      highlighted in the NCCHC Standards for Health Services in Jails:
      “since the legal status regarding the confidentiality of such information


                                    -   102 -
      varies from state to state and from time to time, the facility should
      keep informed of any changes enacted by legislatures or determined
      by the courts.” In order to resolve this recommendation, please
      provide to the OIG plans to implement a system for tracking and
      monitoring HIV/Hepatitis status of USMS prisoners while in the custody
      of the USMS, similar to that of the current policies and procedures
      covering management of TB, by May 7, 2004.

12.   Resolved. Part (a) is resolved and can be closed upon notification
      that the USMS has implemented corrective actions and policy changes
      arising from its guard work group. In the interim, please provide the
      OIG with documentation certifying district compliance with guard
      contract terms and guard training requirements by May 7, 2004. Part
      (b) is resolved and can be closed when the USMS provides to the OIG
      verification that all districts have reviewed all formal guard company
      contracts and provided written certification of compliance with contract
      terms and conditions. Please provide the aforementioned by May 7,
      2004. Part (c) is resolved. The USMS states that collateral duties are
      taken into account when an evaluation is done on an employee. In
      order to close this part of the recommendation, please provide to the
      OIG by May 7, 2004, the current performance evaluation elements
      that specifically address COTR performance.




                                   -   103 -
